<html>
<title> - IMPROVING CHILDREN'S HEALTH: STRENGTHENING FEDERAL CHILD NUTRITION PROGRAMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                      IMPROVING CHILDREN'S HEALTH:
                         STRENGTHENING FEDERAL
                        CHILD NUTRITION PROGRAMS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 2, 2010

                               __________

                           Serial No. 111-47

                               __________

      Printed for the use of the Committee on Education and Labor



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html





                  U.S. GOVERNMENT PRINTING OFFICE
55-000 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
Dennis J. Kucinich, Ohio             Judy Biggert, Illinois
David Wu, Oregon                     Todd Russell Platts, Pennsylvania
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                 Barrett Karr, Minority Staff Director











                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 2, 2010....................................     1

Statement of Members:
    Kline, Hon. John, Senior Republican Member, Committee on 
      Education and Labor........................................     4
        Prepared statement of....................................     5
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3
        Questions submitted for the record.......................    55
    Shea-Porter, Hon. Carol, a Representative in Congress from 
      the State of New Hampshire, submission for the record:
        Issue brief, ``Federal Child Nutrition Programs Are 
          Important to Rural Households,'' from the Carsey 
          Institute..............................................    50

Statement of Witnesses:
    Gettman, Lucy, director of Federal programs, National School 
      Boards Association.........................................    29
        Prepared statement of....................................    31
    Morrison, Carolyn, president, National CACFP Forum; executive 
      director, Child Care Development Services..................    13
        Prepared statement of....................................    15
    Rivas, Dora, president, School Nutrition Association (SNA); 
      executive director, Food and Child Nutrition...............     7
        Prepared statement of....................................     9
        Response to questions submitted for the record...........    56
    Saluja, Kiran, MPH, RD, deputy director, PHFE WIC Program....    20
        Prepared statement of....................................    22

 
                      IMPROVING CHILDREN'S HEALTH:
                         STRENGTHENING FEDERAL
                        CHILD NUTRITION PROGRAMS

                              ----------                              


                         Tuesday, March 2, 2010

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 2:35 p.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Scott, McCarthy, 
Wu, Holt, Loebsack, Shea-Porter, Fudge, Polis, Sablan, Chu, 
Kline, Petri, and Roe.
    Staff Present: Aaron Albright, Press Secretary; Ali Al 
Falahi, Staff Assistant; Tylease Alli, Hearing Clerk; Andra 
Belknap, Press Assistant; Calla Brown, Staff Assistant, 
Education; Jody Calemine, General Counsel; Carlos Fenwick, 
Policy Advisor; Patrick Findlay, Investigative Counsel; Denise 
Forte, Director of Education Policy; David Hartzler, Systems 
Administrator; Kara Marchione, Education Policy Advisor; Sadie 
Marshall, Chief Clerk; Alex Nock, Deputy Staff Director; 
Lillian Pace, Policy Advisor, Subcommittee on Early Childhood, 
Elementary and Secondary Education; Meredith Regine, Junior 
Legislative Associate, Labor; Alexandria Ruiz, Administrative 
Assistant to Director of Education Policy; Melissa Salmanowitz, 
Press Secretary; Gabrielle Serra, Detailee, Child Nutrition; 
Dray Thorne, Senior Systems Administrator; Daniel Weiss, 
Special Assistant to the Chairman; Kim Zarish-Becknell, Policy 
Advisor, Subcommittee on Healthy Families and Communities; 
Stephanie Arras, Minority Legislative Assistant; James 
Bergeron, Minority Deputy Director of Education and Human 
Services Policy; Kirk Boyle, Minority General Counsel; Allison 
Dembeck, Minority Professional Staff Member; Ryan Murphy, 
Minority Press Secretary; Susan Ross, Minority Director of 
Education and Human Services Policy; and Linda Stevens, 
Minority Chief Clerk/Assistant to the General Counsel.
    Chairman Miller. A quorum being present, the committee will 
come to order to conduct a hearing on Improving Children's 
Health: Strengthening the Federal Child Nutrition Programs.
    I want to welcome our witnesses and thank you for taking 
your time to be with us. I am going to introduce you in a 
moment. But first we are going to have opening statements by 
myself and by Representative Kline.
    The statement starts out saying ``This morning,'' so we 
will change it right away to say, This afternoon, we will 
examine how stronger nutrition programs can help fight the 
childhood obesity epidemic and help improve our students' 
learning and health.
    Today, almost one in three children are obese. Childhood 
obesity affects all aspects of children's lives from their 
physical well-being to their academic success to their self-
confidence. The health of our children should be the top 
national priority.
    As many of you know, First Lady Michelle Obama recently 
announced that ending childhood obesity will be her first major 
policy initiative. Last month she launched the Let's Move! 
Campaign to ensure that children born today will grow up as 
healthy adults. Mr. Kline and myself were both at the White 
House when she met with the bipartisan group on what 
contributions we might make as we consider the reauthorization. 
By offering a realistic goal of making children healthier and 
more active within a generation, she has set the stage for 
dramatic improvement.
    To help achieve this goal, her initiative contains four key 
pillars: getting parents more involved and informed about 
nutrition and exercise; making healthy foods more accessible 
and affordable; increasing attention to physical activity; and 
improving the quality of food in the school meal programs.
    The first lady and I both know that the government alone 
can not curb this epidemic. Individuals, families, communities, 
and the private sector all share responsibility. I welcome her 
involvement and look forward to working with her on this 
initiative.
    This committee can play a key role in this effort, and 
today's hearing provides an opportunity to hear from 
stakeholders. For over 60 years, the child nutrition programs 
have helped families who have struggled with the choices of 
putting food on the table or paying another bill. The School 
Lunch and School Breakfast Programs and the Child and Adult 
Care Food Program and the WIC Program have provided a 
nutritional safety net for these families, serving nearly 45 
million individuals across the country.
    Studies show that pregnant women who participate in the 
Womens, Infants, and Children Program have healthier 
pregnancies and healthier babies. Studies have also shown that 
low-income women are less likely to breastfeed than high-income 
mothers. Thanks to Federal, State and local efforts, the WIC 
Program has improved breastfeeding rates among WIC mothers in 
this population.
    The Child and Adult Care Food Program also provides 
critical nutritional support to young children. This program 
helps make nutritious meals and snacks possible for 3 million 
children in child-care centers, family child-care homes, Head 
Start and after-school programs.
    The meals children receive in these programs are more 
nutritious and well-balanced than in other child-care programs. 
Despite this success, the tough economic times, and the 
paperwork requirements, have forced some sponsors to make the 
difficult decision to stop administering this program.
    In South Central L.A., one of the highest risk areas of 
hunger and obesity in California, no organization was able to 
sponsor this program this year. We will go into some detail on 
that during the question period. As a result, more than 5,000 
low-income young children lost access to healthy meals and 
snacks.
    If we are serious about improving children's health, we 
will have to make these programs and other critical sources of 
nutrition a priority. But the discussion doesn't end there.
    As the First Lady said, we must also consider the role 
schools play in providing children with nutrition that meets 
the requirements to promote academic achievement. We expect 
children to come to school prepared to learn, but studies show 
that hunger and poor nutrition can be major barriers to their 
success.
    Our work to reauthorize the child nutrition programs 
presents a great opportunity to change the way children eat, to 
expand their access to nutritional meals, and to end the child 
hunger crisis in our country. We must ensure that schools have 
the support they need to provide high-quality meals, and safe 
meals, so that children can make healthy choices. We must 
ensure that all eligible children can access these programs by 
removing barriers families face when enrolling in the school 
meal programs, like confusing application forms.
    Today we will learn more about the work that lies ahead to 
provide all children with the healthy, nutritious, and safe 
meals they need to lead healthy and successful lives. I want to 
thank our witnesses for joining us today, and I look forward to 
hearing your testimony.
    Now I would like to recognize Mr. Kline, the senior 
Republican, for the purposes of an opening statement.
    [The statement of Mr. Miller follows:]

          Prepared Statement of Hon. George Miller, Chairman,
                    Committee on Education and Labor

    Good Morning.
    This morning we'll examine how stronger nutrition programs can help 
fight the childhood obesity epidemic and help improve our students' 
learning and health.
    Today, almost one in three children are obese.
    Child obesity affects all aspects of children's lives from their 
physical well-being, to their academic success to their self-
confidence.
    The health of our children should be a top national priority.
    As many of you know, the First Lady, Michelle Obama, recently 
announced that ending childhood obesity will be her first major policy 
initiative.
    Last month, she launched the ``Let's Move'' campaign to ensure that 
children born today will grow up to be healthy adults.
    By offering a realistic goal of making children healthier and more 
active within a generation, she has set the stage for dramatic 
improvements.
    To help achieve this goal, her initiative contains four key 
pillars:
    <bullet> Getting parents more involved and informed about nutrition 
and exercise;
    <bullet> Making healthy foods more accessible and affordable;
    <bullet> Increasing attention to physical activity; and
    <bullet> Improving the quality of food in the school meal programs.
    The First Lady and I both know that the government alone cannot 
curb this epidemic.
    Individuals, families, communities and the private sector all share 
responsibility. I welcome her involvement and look forward to working 
with her on this initiative. This committee can play a key role in this 
effort and today's hearing provides an opportunity to hear from 
stakeholders.
    For over sixty years, the child nutrition programs have helped 
families who have struggled with the choices of putting food on the 
table or paying another bill. The school lunch and school breakfast 
program, the Child and Adult Care Food Program, and the WIC program 
have been a nutritional safety net for these families--serving nearly 
45 million individuals across the country. Studies show that pregnant 
women who participate in WIC have healthier pregnancies and healthy 
babies.
    Studies have also shown that low-income women are less likely to 
breastfeed than higher-income mothers. But thanks to federal, state and 
local efforts, the WIC program has improved breastfeeding rates among 
WIC mothers in this population.
    The Child and Adult Care Food Program also provides critical 
nutrition support to young children. This program helps make nutritious 
meals and snacks possible for three million children in child care 
centers, family child care homes, Head Start and after-school programs.
    And we know that that the meals children receive in these programs 
are more nutritious and well-balanced than in other child care 
programs. But despite its success, tough economic times and paperwork 
requirements have forced some sponsors to make the difficult decision 
to stop administering this program.
    For example, in South Central Los Angeles, one of the highest-risk 
areas for hunger and obesity in California, no organization was able to 
sponsor this program last year.
    As a result, more than 5,000 low income young children lost access 
to healthy meals and snacks. If we are serious about improving 
children's health, we have to make these programs, and other critical 
sources of nutrition, a priority.
    But the discussion doesn't end there.
    As the First Lady has said, we must also consider the role schools 
play in providing children with healthy meals and environments that 
promote academic achievement.
    We expect children to come to school prepared to learn.
    But studies show that hunger and poor nutrition can be major 
barriers to their success.
    Our work to reauthorize our child nutrition programs presents a 
great opportunity to change the way children eat, to expand their 
access to nutritious meals and to end the child hunger crisis in our 
country.
    We must ensure that schools have the support they need to provide 
high-quality and safe meals so kids can make healthy choices.
    We must also ensure that all eligible children can actually access 
these programs by removing barriers families face when enrolling in the 
school meal programs, like confusing application forms.
    Today we will learn more about the work that lies ahead to provide 
all children with the healthy, nutritious and safe meals they need to 
lead healthy and successful lives.
    I want to thank our witnesses for joining us today. I look forward 
to hearing their testimony.
                                 ______
                                 
    Mr. Kline. Thank you, Mr. Chairman, and good afternoon to 
all. Welcome to our witnesses.
    Today we will examine Federal child nutrition programs with 
an eye toward improving children's health. Childhood obesity 
rates are a serious concern for parents and families, and they 
present a challenge to the health of our Nation as a whole. 
What children eat at school certainly plays a role in their 
overall nutrition. So I welcome this opportunity to look at 
what parents and local schools are doing to promote healthy 
eating habits.
    The last time we reauthorized the Federal nutrition 
programs, Congress called on school districts to establish 
local wellness policies as a way to promote good health and 
engage parents in a discussion about nutrition and physical 
activity. In fact, it was my friend, Mike Castle, who took the 
lead on addressing children's health with these local wellness 
policies. Local policies are the most direct and responsive 
strategy for promoting healthy eating habits at home and at 
school. They allow schools to get buy-in and involvement from 
parents and students. They account for demographic and economic 
differences as well as local food preferences. And they avoid 
the dangers of a one-size-fits-all Federal approach to school 
menu planning.
    Of course, the School Breakfast and Lunch Programs are not 
the only initiatives to support child nutrition. When Congress 
reauthorizes child nutrition programs, we will also look at the 
Child and Adult Care Food Program and the Women, Infants and 
Children program, commonly known as WIC. Together these 
programs help combat hunger and promote nutrition through 
meals, education, and subsidies to low-income Americans. Our 
goal in renewing these programs should to be strike the 
appropriate balance between Federal support and local 
leadership.
    With local wellness policies and other initiatives, school 
districts are exploring a broad range of policies to promote 
better health and combat hunger. I would caution as we prepare 
to renew and extend these programs, that we not confuse support 
for a healthy school environment with Federal mandates for what 
children and their families are allowed to eat.
    One report from the Institute of Medicine concluded that 
radical changes might actually undermine participation in the 
School Lunch Program, saying, ``If school children are not 
satisfied with the taste of food served in school meals, 
participation in the school meal programs is likely to 
decrease.'' That is not to say that school meals should not be 
nutritious; but ultimately, good health habits begin at home. 
That is why it is important for local schools to have the 
flexibility to work with parents to develop policies that work 
for their students.
    Local schools also need the flexibility to determine what 
food is sold outside the cafeteria. Many schools are 
voluntarily including healthy snacks in their vending machines 
or at extracurricular events, but ultimately it is local 
control over food policy that allows for innovation while still 
responding to each school's unique circumstances.
    We have all heard the outrageous stories in which a piece 
of banana bread at a bake sale does not meet the nutritional 
standards, but a bag of chips meets the requirements. Clearly, 
arbitrary nutritional mandates can backfire when they override 
common sense. I hope we will keep these cautionary tales in 
mind as we explore how parents and local schools can improve 
children's health.
    Thank you Mr. Chairman. I yield back.
    [The statement of Mr. Kline follows:]

   Prepared Statement of Hon. John Kline, Senior Republican Member, 
                    Committee on Education and Labor

    Thank you Chairman Miller, and good afternoon. Today we will 
examine federal child nutrition programs with an eye toward improving 
children's health. Childhood obesity rates are a serious concern for 
parents and families, and they present a challenge to the health of our 
nation as a whole. What children eat at school certainly plays a role 
in their overall nutrition, so I welcome this opportunity to look at 
what parents and local schools are doing to promote healthy eating 
habits.
    The last time we reauthorized the federal nutrition programs, 
Congress called on school districts to establish local wellness 
policies as a way to promote good health and engage parents in a 
discussion about nutrition and physical activity. In fact, it was 
Representative Mike Castle who took the lead on addressing children's 
health through these local wellness policies.
    Local policies are the most direct and responsive strategy for 
promoting healthy eating habits at home and at school. They allow 
schools to get buy-in and involvement from parents and students. They 
account for demographic and economic differences, as well as local food 
preferences. And they avoid the dangers of a one-size-fits-all federal 
approach to school menu planning.
    Of course, the school breakfast and lunch programs are not the only 
initiatives to support child nutrition. When Congress reauthorizes 
child nutrition programs, we will also look at the Child and Adult Care 
Food Program and the Women Infants and Children program, commonly known 
as WIC. Together, these programs help combat hunger and promote 
nutrition through meals, education, and subsidies to low-income 
Americans.
    Our goal in renewing these programs should be to strike the 
appropriate balance between federal support and local leadership. With 
local wellness policies and other initiatives, school districts are 
exploring a broad range of policies to promote better health and combat 
hunger.
    I would caution as we prepare to renew and extend these programs 
that we not confuse support for a healthy school environment with 
federal mandates for what children and their families are allowed to 
eat. One report from the Institute of Medicine concluded that radical 
changes might actually undermine participation in the school lunch 
program, saying ``If schoolchildren are not satisfied with the taste of 
foods served in school meals, participation in school meal programs is 
likely to decrease.''
    That is not to say that school meals should not be nutritious. But 
ultimately, good health habits begin at home. That's why it is 
important for local schools to have the flexibility to work with 
parents to develop policies that work for their students.
    Local schools also need the flexibility to determine what food is 
sold outside the cafeteria. Many schools are voluntarily including 
healthy snacks in their vending machines or at extracurricular events. 
But ultimately, it is local control over food policy that allows for 
innovation while still responding to each school's unique 
circumstances.
    We've all heard the outrageous stories in which a piece of banana 
bread at a bake sale does not meet nutritional standards, but a bag of 
chips meets the requirements. Clearly, arbitrary nutritional mandates 
can backfire when they override commonsense.
    I hope we'll keep these cautionary tales in mind as we explore how 
parents and local schools can improve children's health. Thank you 
Chairman Miller, I yield back.
                                 ______
                                 
    Chairman Miller. Thank you.
    Pursuant to committee rule 7(c), all members may submit an 
opening statement in writing which will be made part of the 
permanent record.
    And now I would like to introduce our panel of witnesses 
for this hearing. First witness, Ms. Dora Rivas, is currently 
serving as president elect of the School Nutrition Association 
after serving as a member of the membership committee in 2005 
to 2006. Ms. Rivas has been in food service for 36 years. In 
January 2005 she took the role of food and child nutrition 
services executive director for the Dallas Independent School 
District. Ms. Rivas is certified with the Texas Association of 
School Nutrition and credentialed as a school nutrition 
specialist with the School Nutrition Association. She also is a 
registered dietitian with the American Dietetic Association.
    Carolyn Morrison is the president of the National Child and 
Adult Care Food Program Forum and the CEO of the Child Care 
Development Services in Gresham, Oregon. In addition to being 
current and past president of the National Child and Adult Care 
Food Program Forum, she has served on numerous national and 
USDA committees and task forces to improve this program. Ms. 
Morrison has served on the advisory board of the National Food 
Service Management Institute, the California Child and Adult 
Program Roundtable, and California Food Policy Advocates, and 
the Oregon Sponsors Alliance.
    And I believe our colleague, Congresswoman Chu, will 
introduce the next witness.
    Ms. Chu. Today I have the pleasure of introducing one of my 
own constituents, Kiran Saluja, who is the deputy director of 
the Public Health Foundation Enterprises' WIC in Irwindale, 
California. This organization is a nonprofit agency that has 
been providing WIC services in the Los Angeles and Orange 
County areas for over 34 years. She oversees 54 WIC centers 
that are throughout the two counties, serving 325,000 clients 
every month. And I am pleased to report that in my district, 
she oversees seven WIC locations who serve over 46,000 people.
    Ms. Saluja first joined the Public Health Foundation WIC in 
1984 as a nutritionist. She is a registered dietitian and a 
member of the National WIC Association, the American Public 
Health Association, and the American Dietetic Association. She 
has focused much of her work on breastfeeding and is a strong 
and vocal advocate for healthy babies and families.
    Thank you, Ms. Saluja, for joining us today, and I look 
forward to your testimony.
    Chairman Miller. Thank you and welcome.
    Our next witness will be Lucy Gettman who is the director 
of Federal programs for the National School Boards Association. 
Ms. Gettman began her career as an advocacy coordinator for the 
Children's Hunger Alliance in Ohio. She has held policy and 
professional positions with the Ohio Attorney General, the Ohio 
Student Aid Commission, and the Interuniversity Council of 
Ohio.
    Immediately prior to her work with the National School 
Board Association, she was director of Federal relations for 
the Reading Recovery Council of North America. Ms. Gettman 
currently specializes in early childhood education, child 
nutrition education technology and literacy issues for the 
National School Board Association.
    Welcome to all of you. Your prepared testimony will be 
placed in the record in its entirety. You are going to be given 
5 minutes to explain the highlights of your testimony. And in 
front of you, you see the small boxes. When you begin, a green 
light will go on. When you have used up 4 of your 5 minutes, an 
orange light will go on and you may want to think about 
wrapping that up. And then, when a red light goes on, your time 
will have expired.
    So, welcome. We look forward to your testimony and the 
responses you will have to the members of the committee's 
questions. Ms. Rivas, we will please begin with you.

 STATEMENT OF DORA R. RIVAS, MS, RD, SNS, EXECUTIVE DIRECTOR, 
 FOOD AND CHILD NUTRITION SERVICES, DALLAS INDEPENDENT SCHOOL 
                            DISTRICT

    Ms. Rivas. Thank you. Chairman Miller, members of the 
committee, thank you very much for continuing the extraordinary 
tradition of this hearing. We deeply appreciate the courtesy.
    Our two highest priorities on our issue paper in general 
are to expand access and improve the nutritional content of the 
meals in the environment of the local school.
    First, we have several suggestions to expand access. We 
recommend that direct certification and direct verification be 
a high priority, that you continue to expand its use for child 
nutrition. We recommend the statute be amended to allow for 
community eligibility in high-poverty areas so that children do 
not have to individually fill out the applications. The Hunger-
Free Schools Act, H.R. 4148, has a provision that embraces this 
concept.
    We support expansion of the Summer Food Service Program and 
the After-School Child Care Program. We support the Healthy 
Start Act introduced by Representatives Stephanie Herseth 
Sandlin and Jo Ann Emerson to provide 5 cents in USDA 
commodities per meal for the School Breakfast Program. And that 
is H.R. 4638.
    We urge the Congress to expand the Free Meal Program 
gradually over time, to make the income guidelines consistent 
with the income guideline in the WIC Program. H.R. 3705 has 
been introduced to do this and we support that approach.
    Finally, we ask that you close a major loophole in the 
statute which allows funds that you appropriate for school 
meals to be used for expenses unrelated to providing those 
school meals. There is no provision in the statute or in the 
regulations that govern what expenses can be reimbursed with 
this funding. Furthermore, when a charge is made that we 
believe to be inappropriate, there is no recourse. There is no 
appeal process to USDA. Our suggested amendment is written in 
the testimony.
    Second, with regard to nutrition integrity, we have a few 
suggestions. SNA, in partnership with the First Lady, Michelle 
Obama's Let's Move! Campaign has committed to further improving 
healthy school meals and advancing nutrition education for 
America's children. I encourage you to go to our Web site to 
learn more about that partnership on the First Lady's Let's 
Move! Campaign.
    We urge the committee to increase the reimbursement in all 
meal categories. We urge you to also amend the statute and 
require the Secretary to establish a consistent national 
application of the most recent dietary guidelines for all meals 
reimbursed by the Department of Agriculture.
    The current statute is defective in two important respects. 
First, it requires meals to be consistent with the goals of the 
dietary guidelines. That is not specific enough. The meals must 
be consistent with the guidelines, not just the goals of the 
guidelines.
    Second, someone must be in charge of deciding if the meals, 
are, in fact, consistent with the guidelines. That 
responsibility must rest with the Secretary. If every State and 
local community can decide if they are meeting the guidelines, 
then there is no standard at all. Children need the same 
nutrients, regardless of where they live. It is basic science. 
The country is spending a lot of money to develop the IOM 
report and to craft the dietary guidelines. They should be 
followed consistently.
    The time has clearly come to end the so-called time-and-
place rule and give the Secretary the authority needed to 
regulate the nutritional quality of all foods and beverages 
sold on the school campus during the school day. The Secretary 
should be required to promulgate regulations to guarantee that 
all foods and beverages sold in schools are consistent with the 
most recent edition of the Dietary Guidelines for Americans, 
taking into consideration the recommendations of the Institute 
of Medicine and SNA's recommendation for national nutrition 
standards.
    While it is mostly a matter of science, let me also mention 
that the current multiplicty of nutrition standards across the 
country is driving up the cost of the program. The more product 
specifications that exist in the school market, the higher the 
cost of production and the cost of the program. Again, our 
specific amendments with regard to consistency is included in 
our written testimony.
    We must finally establish an effective nutrition education 
program in the school.
    Chairman Miller, members of the committee, thank you again 
for continuing this special tradition. We pledge to work 
closely with the majority and the minority to craft a 
reauthorization bill that is both faithful to our children and 
responsive to the deficit.
    I would be pleased to answer any questions that you may 
have.
    Chairman Miller. Thank you very much.
    [The statement of Ms. Rivas follows:]

     Prepared Statement of Dora Rivas, President, School Nutrition 
    Association (SNA); Executive Director, Food and Child Nutrition

    Chairman Miller, Members of the Committee, thank you very much for 
continuing the extraordinary tradition of this hearing. We deeply 
appreciate the courtesy.
    I am Dora Rivas, the President of the School Nutrition Association 
(SNA) and the Executive Director of Food and Child Nutrition in Dallas, 
Texas. With me are 1,000 of my best friends. Each day my 55,000 
colleagues in SNA serve over 31 million children in 100,000 school 
districts. Representatives from countries around the world now 
regularly attend our conventions to learn how the American school 
nutrition programs are operated and implemented. It is a most special 
American success story and this great Committee is very much a part of 
that history.
    Mr. Chairman, as we meet to craft the 2010 Child Nutrition 
Reauthorization, we do so with the full realization that it will not be 
easy to reconcile the needs of our children with the massive public 
debt we face as a country. Investing in our children and preparing them 
to learn and compete in a global economy must remain one of the 
country's highest priorities. However, we appreciate the challenge you 
will face in implementing the President's proposal to increase funding 
for this critically important program.
    Given the time of the day, with your permission, I will make the 
SNA 2010 Issue Paper a part of the hearing record and confine my 
remarks to two of our highest priorities: Expanding program access and 
improving the nutritional content and environment of the local school.
Program Access
    Extending the reach of the child nutrition programs, while 
improving their efficiency, is one of the two major themes in our Issue 
Paper. To this end, we are proposing several changes in the statute:
    <bullet> We recommend that direct certification and direct 
verification be a high priority and that you continue to expand its use 
for child nutrition. The cost of collecting and verifying income data 
for the 20 million children who receive free and reduced price meals is 
significant. Further, it takes our limited personnel away from the 
mission of improving the nutritional quality of the meals. We are 
nutritionists, not accountants, and the more you can do in this area 
the better.
    <bullet> We recommend that the statute be amended to allow for 
community eligibility in high poverty areas so that children do not 
have to individually fill out the applications. The Hunger Free Schools 
Act, H.R. 4148, has a provision that embraces this concept.
    <bullet> We support expansion of the Summer Food Service Program 
and the After School Child Care Program.
    <bullet> We support the Healthy Start Act introduced by 
Representatives Stephanie Herseth Sandlin and Jo Ann Emerson to provide 
five cents in USDA commodities, per meal, for the school breakfast 
program.
    <bullet> We urge the Congress to expand the ``free'' meal program 
to make the income guideline consistent with the income guideline in 
the WIC program. If the younger child qualifies for WIC, the older 
sibling should qualify for fee school meals. This would mean raising 
the income guideline from 130% of poverty to 185% of poverty. The 
current reality is that many children who qualify for ``reduced price 
meals'' simply do not have 40 cents for lunch or 30 cents for breakfast 
to purchase the meal. Each day we are confronted with children who do 
not have this small amount. At the end of each year, there are children 
who owe the school money for meals that have been provided. We see 
checks for only a few dollars that are returned for insufficient funds. 
Our anecdotal data indicates that the breakfast fee is actually the 
larger barrier to participation but we urge you to raise the income 
level for both programs.
    <bullet> Finally, given the size of the programs and the 
significant annual appropriation, we ask that you close a major 
loophole in the statute which allows funds that you appropriate for 
school meals to be used for expenses completely unrelated to providing 
school meals. There is no provision in the statute, or in the 
regulations that govern what expenses can be reimbursed for this 
funding. As a result, we are frequently required by local schools to 
pay for: sanitation for the entire school; electricity for the school; 
personnel completely unrelated to the meal program; school 
construction; and a disproportionate percentage of the overhead 
operating costs of the school building, among other expenses. Further, 
when this happens there is no recourse. There is no rule and no appeal 
process to USDA.
    Therefore, we are asking for an amendment as follows:
                          suggested amendment
    Section 10 of the Richard B. Russell National School Lunch Act is 
amended by adding new subsections as follows:
    ``(c) The Secretary shall identify those expenses that are 
reasonable and necessary for providing meals under this Act and the 
Child Nutrition Act of 1966.
    (d) School food service authorities may reimburse only those 
expenses identified by the Secretary under subsection (c).
Nutrition Integrity
    As we all know, our country is facing an obesity epidemic. Obesity 
is now a major public health problem that is significantly increasing 
the cost of health care. While the school lunch and breakfast programs 
are a part of the solution, not part of the problem, there are some 
other changes that must be made within the school. This is why SNA, in 
partnership with First Lady Michelle Obama's Let's Move! campaign, has 
committed to further improving healthy school meals and advancing 
nutrition education for America's students. To learn more about SNA's 
partnership with the First Lady's Let's Move! campaign, I encourage you 
to visit our website at http://www.schoolnutrition.org/
Blog.aspx?id=13585&blogid=564.
    The time has clearly come to end the so-called ``time and place 
rule'' and give the Secretary the authority needed to regulate the 
nutritional quality of all foods and beverages sold on the school 
campus during the school day. The Secretary should be required to 
promulgate regulations to guarantee that all foods and beverages sold 
in school are consistent with the most recent edition of the Dietary 
Guidelines for Americans, taking into consideration the recommendations 
of the Institute of Medicine and SNA's recommendations for National 
Nutrition Standards. This must be implemented as soon as is 
practicable.
    We urge you to also amend the statute and require the Secretary to 
establish a consistent national application of the most recent Dietary 
Guidelines for all meals reimbursed by the Department of Agriculture. 
The current statute is defective in two important respects:
    First, it requires meals be consistent with the ``goals'' of the 
Dietary Guidelines. That is not specific enough. The meals must be 
consistent with the Guidelines, not just the goals of the Guidelines.
    Second, someone must be in charge of deciding if the meals are, in 
fact, consistent with the Guidelines. That responsibility must rest 
with the Secretary. If every state and local community can decide if 
they are meeting the Guidelines, there is no standard at all. Children 
need the same nutrients regardless of where they live. It is basic 
science. The country is spending a lot of money to develop the IOM 
report and to craft the Dietary Guidelines. They should be followed 
consistently.
    While it is mostly a matter of science, let me also mention, that 
the current multiplicity of nutrition standards across the country is 
driving up the cost of the program. The more product specifications 
that exist in the school market, the higher the cost of production and 
the cost of the program.
    We therefore suggest that the following amendment be included in 
the Committee's bill:
                          suggested amendment
    ``Section 9 (f) (1) (A) of the Richard B. Russell National School 
Lunch Act is amended to read as follows: ``(A) are consistent with the 
most recent edition of the Dietary Guidelines for Americans as 
prescribed by the Secretary; and''.
    3. We must finally establish an effective nutrition education 
program in the school. The investment you are making in the school 
nutrition programs is significant and the country's health care bill is 
even bigger. Yet for all of the words about obesity we still do not 
have an effective nutrition education program in the school. The 
Department, with SNA and other stakeholders, must do the research 
necessary to figure out how to communicate effectively with children 
about nutrition. Some schools are attempting to utilize computers that 
dictate to students the number of calories in a food item and the 
amount of physical activity it will take to burn off those calories.
    When the Nutrition Education and Training Program was first enacted 
in the 1970s, it was funded with 50 cents per child, per year. That 
level lasted for only one year and then it was reduced over time. We 
request that a new nutrition education program be established, funded 
and modernized so it can communicate more effectively with children in 
today's modern world. The First Lady, with bipartisan support, is 
asking all of us to give greater attention to the obesity challenge. It 
must include a nutrition education program in the schools.
Conclusion
    Chairman Miller, Members of the Committee, thank you, again, for 
continuing this special tradition. We pledge to work closely with the 
majority and the minority to craft a reauthorization bill that is both 
faithful to our children and responsive to the deficit. I would be 
pleased to answer any questions that you may have.
    Thank you.
                      2010 legislative issue paper
    President Obama proposed an additional $1 billion for Child 
Nutrition Reauthorization to eliminate childhood hunger and serve our 
children. SNA believes every penny of this increase--and more--is 
needed to make additional improvements in child nutrition programs. 
Therefore, SNA urges Congress to increase funding for child nutrition. 
SNA's priorities for Reauthorization include:
Top Priorities
    <bullet> Expand the ``free'' meal category from 130% of poverty to 
185%, consistent with the WIC income eligibility guidelines 
(eliminating the reduced price meal category).
    <bullet> Increase the per meal reimbursement for all meals in order 
to keep pace with rising costs and implementation of the Dietary 
Guidelines for Americans. The current Federal reimbursement of $2.68 
for a ``free'' school lunch is 35 cents less than the average cost of 
production.
    <bullet> Require the Secretary to establish a consistent national 
application of the Dietary Guidelines for Americans, for all 
reimbursable meals, in accordance with recommendations of the Institute 
of Medicine (IOM), which benefited from SNA's Recommendations for 
National Nutrition Standards.
    <bullet> Grant the Secretary the statutory authority to regulate 
the sale of all foods and beverages on the school campus, consistent 
with the most recent edition of the Dietary Guidelines for Americans, 
in accordance with SNA's Recommendations for National Nutrition 
Standards and the recommendations of IOM (ending the ``time and place'' 
rule).
    <bullet> Require the Secretary to determine which school expenses 
and indirect costs can be paid for with school food service funds.
Additional Priorities
            Funding
    <bullet> Allow for community eligibility in high poverty areas.
    <bullet> Provide USDA commodities for each school breakfast served.
    <bullet> Expand after school and summer meal programs.
    <bullet> Re-establish entitlement funding for equipment assistance 
in all schools.
            Administrative provisions
    <bullet> Require the Secretary to establish an expedited food 
safety coordination and recall communication system.
    <bullet> Address childhood obesity by establishing an effective 
nutrition education curriculum and increasing the consumption of 
fruits, vegetables and whole grains.
    <bullet> Utilize technology to simplify program administration and 
enhance financial accountability.
    <bullet> Establish a seamless application and reimbursement process 
for all school, preschool and child care food programs.
    <bullet> Maximize the use of direct certification and direct 
verification.

             SNA Partners With First Lady Michelle Obama's
                      Childhood Obesity Initiative

  School Nutrition Professionals Commit to New Nutrition Programs and 
                                 Goals

    National Harbor, MD (February 9, 2010)--The School Nutrition 
Association (SNA), representing 55,000 school nutrition professionals, 
is proud to support First Lady Michelle Obama's childhood obesity 
initiative. SNA and its members have agreed to a number of key steps to 
further improve the nutritional quality of school meals and advance 
nutrition education for America's students. Commitments include:
    Challenge school nutrition programs to achieve US Department of 
Agriculture's HealthierUS School Challenge Certification, significantly 
increasing the number of schools nationwide meeting the program's 
goals:
    <bullet> SNA will work with USDA to eliminate current barriers for 
recognition, ensuring more schools can participate in the program; 
provide training and mentoring to assist school nutrition programs in 
meeting the HealthierUS School Challenge requirements; and promote the 
program through conferences and meetings, publications and events
    <bullet> SNA's goal is to increase the number of HealthierUS 
Schools from the current 600 to 2,000 in year one, and with the support 
of other education community partners, reach 10,000 HealthierUS Schools 
by year five
    Encourage school nutrition directors to partner with the Center for 
Disease Control's Coordinated School Health Programs to improve the 
school health environment. SNA will offer educational programs and 
training on successfully implementing the Coordinated School Health 
Program.
    Challenge school nutrition program directors to accelerate the time 
frame for meeting the Institute on Medicine's (IOM) National Nutrition 
Standards for school meals. To meet this goal, SNA will initiate the 
following during the 2010-2011 school year:
    <bullet> Develop and promote the LAMP Awards (Leading Advancements 
in Menu Planning), a recognition program encouraging school districts 
and industry members to use innovative menu plans, recipe and product 
development, and other tools to achieve IOM goals prior to the timeline 
for implementation
    <bullet> Partner with local fruit and vegetable growers through 
Farm to School Programs to promote consumption of more fresh fruit and 
vegetables
    <bullet> Partner with industry to provide more affordable whole 
grain products and to develop nutrition education campaigns influencing 
students to consume more nutrient-dense foods at a critical time in 
their development
    Advance nutrition education opportunities for all students. With 
the First Lady and federal officials, SNA plans to partner with media, 
technology, and education program leaders to bring turnkey nutrition 
education into the classroom, cafeteria, and home.
    ``First Lady Michelle Obama recognizes how crucial school meals are 
to the health and academic success of America's children, and school 
nutrition professionals are proud to support the First Lady's effort to 
combat childhood obesity and strengthen under-funded school meals 
programs,'' said School Nutrition Association President Dora Rivas, MS, 
RD, SNS, and executive director of Food and Child Nutrition Services 
for the Dallas Independent School District in Texas.
    ``Since announcing her initiative, the First Lady has eloquently 
shared her own struggles as a working mom to foster healthy lifestyles 
for her children,'' said Rivas. ``The School Nutrition Association 
looks forward to working with the First Lady to encourage America's 
families to get involved in school nutrition programs and promote 
physical activity and healthy eating at home.''
    ``The school cafeteria is a classroom for students--an opportunity 
for them to learn about nutrition and well-balanced meals. School 
nutrition programs need the support of parents and families to 
succeed--whether joining students for lunch or making time to talk with 
them about the food they eat at school, taking an interest in a child's 
eating habits can lead to a lifetime of good choices. After all, when a 
child has tried new fruits and vegetables at home, he or she is more 
likely to pick up those items when they walk through the lunch line.''
    The First Lady's initiative was launched just as Congress prepares 
to reauthorize the Child Nutrition Act, a critical opportunity for 
legislators to enhance the National School Lunch and Breakfast Programs 
for 31 million American children who benefit from school meals each 
day.
    ``SNA has been calling on Congress to increase the school meal 
reimbursement to keep pace with rising costs. We hope the First Lady's 
activism will encourage legislators to provide school lunch 
professionals with the support they need to offer an even greater 
variety of fruits, vegetables and whole grains to students,'' said 
Rivas.

    The School Nutrition Association is a national, non-profit 
professional organization representing more than 55,000 members who 
provide high-quality, low-cost meals to students across the country. 
The Association and its members are dedicated to feeding children safe 
and nutritious meals. Founded in 1946, SNA is the only association 
devoted exclusively to protecting and enhancing children's health and 
well being through school meals and sound nutrition education.
                                 ______
                                 
    Chairman Miller. Ms. Morrison.

  STATEMENT OF CAROLYN L. MORRISON, CHIEF EXECUTIVE OFFICER, 
                CHILD DEVELOPMENT SERVICES, INC.

    Ms. Morrison. Good afternoon, Mr. Chairman and members of 
the committee. My name is Carolyn Morrison, and I am president 
of the National CACFP Forum and a sponsor of the USDA Child and 
Adult Care Food Program in Oregon. Thank you for the 
opportunity to join you this afternoon to discuss the key role 
the Child and Adult Care Food Program plays in ensuring young 
children have access to good nutrition, and to offer 
recommendations for reauthorization.
    Program improvements can also help reduce childhood 
overweight and obesity, a priority about which our First Lady 
is so passionate. Every day across the country, millions of 
low-income families rely on the healthy food their children 
receive in child-care programs because of this USDA program. We 
all know hunger stifles a child's health, intellect, 
creativity, capacity to learn and to be at their best. This 
program's resources support good nutrition and prevent 
childhood obesity by offering healthy food and teaching young 
children, and their caregivers, about healthy lifestyles and 
meal patterns.
    As a middle-class mom who decided to be a child-care 
provider in the early eighties, I learned firsthand from my 
exposure to low-income children who were in my care. I will 
never forget the 4-year-old boy who wondered why I cooked and 
didn't just go out and buy fast food. Johnny's mom was poor and 
struggled to make ends meet. She loved her kids but hadn't the 
resources, knowledge, or energy to feed them well. The only 
nutritious meals her children received for many years were 
those that she received in child care or when they were at 
school.
    Given the crucial role early childhood nutrition plays in 
supporting the good health, cognitive growth, and development 
of a child, and the lack of knowledge and/or resources of many 
working families, expanding access to the program is vital to 
ensuring that all children in care settings have the 
opportunity to grow strong and live healthy productive lives.
    For many children in child care, like Johnny, the daycare 
program they attend is their primary source of food. They spend 
10 to 12 hours each day in care and receive most, if not all, 
of their meals while there. Allowing child-care facilities the 
option of serving a third meal service, as was previously 
allowed, is an opportunity to improve child nutrition through 
this reauthorization.
    The program is an essential source of support for family 
child-care provider centers and Head Start programs. Program 
resources include training and technical assistance, on-site 
visits, and reimbursement for food and meal preparation costs. 
The program also serves as an important tool in creating and 
maintaining accessible, affordable, quality child care for 
working families.
    Reducing the program area eligibility test from the current 
50 percent to 40 percent could accomplish, through 
reauthorization, improved access to healthy meals for many more 
young children.
    Increasing the availability and the consumption of fresh 
fruits and vegetables, whole grains, and lower fat dairy 
products for young children in child care is essential to 
improve development and health, and to prevent obesity at the 
one-time, early childhood, when it can have the most long-term 
effect.
    Updating the program nutrition standards and meal pattern 
to make them consistent with the most recent Dietary Guidelines 
for Americans could be accomplished through reauthorization. 
Improving meal quality will require enhanced meal 
reimbursements.
    The network of program sponsors is breaking down. Sponsors 
are choosing to discontinue offering the service because they 
cannot afford to continue to operate, given the paperwork and 
oversight responsibilities. Nationally, 27 percent of sponsors 
have chosen to leave the program. This is an especially serious 
problem in Los Angeles where a sponsor chose to close, leaving 
5,000 children and over 700 providers unserved in a very low-
income community.
    A large challenge in my State of Oregon is the size and the 
geography of our State. While 67 percent of all caregivers are 
concentrated in 6 of our 36 counties, providers in the very 
rural areas deserve to participate as well.
    Sponsor administrative reimbursement rates should be 
brought up to the level necessary to provide quality nutrition 
and wellness education, cover the cost of transportation for 
serving rural areas, cover the cost of additional visits and 
the time spent in helping low-income providers overcome 
literacy and language issues.
    Retention of caregivers is challenging as they must remain 
eligible for the program by meeting training requirements. We 
have worked to meet this challenge by developing and offering 
on-line training and healthy nutrition. This positively 
impacted our retention of child-care providers in the program 
as they now have access to mandatory training, regardless of 
where they live.
    Among other topics, these trainings focus on serving more 
fresh fruits and vegetables, low-fat milk and whole grains, and 
have a secondary benefit of helping them meet licensing 
requirements. Partnerships with local colleges and universities 
have enabled us to develop these resources, as there simply 
isn't enough money from the sponsor reimbursement to develop 
them.
    In closing, we strongly support legislation introduced by 
Representative Tonko, the Access to Nutritious Meals for Young 
Children Act, which includes the recommendations I have 
discussed today. And lastly, I would like to invite each of 
you, when you are home in your districts, to visit child-care 
centers, homes, and sponsoring organization to see firsthand 
the importance and opportunities available through the program 
for playing a role in improving children's health, their lives, 
and reversing the childhood obesity epidemic.
    Thank you very much for this opportunity to share this 
information with you on behalf of all the sponsors.
    Chairman Miller. Thank you.
    [The statement of Ms. Morrison follows:]

   Prepared Statement of Carolyn Morrison, President, National CACFP 
       Forum; Executive Director, Child Care Development Services

    Good afternoon, Mr. Chairman and Members of the Committee, I am 
Carolyn Morrison, President of the National CACFP Forum, an 
organization that serves to promote, protect and perfect the Child and 
Adult Care Food Program (referred to as the CACFP); and Executive 
Director of Child Care Development Services, Inc. (CCDS), an Oregon 
sponsor of the CACFP. Thank you for the opportunity to join you this 
afternoon to discuss the key role the Child and Adult Care Program 
plays in ensuring young children have access to good nutrition and to 
offer recommendations for strengthening the program through the Child 
Nutrition Reauthorization. A well-conceived reauthorization bill, 
focused on the right program improvements for CACFP, can help to reduce 
hunger, childhood overweight and obesity, improve child nutrition and 
wellness, and enhance child development and school readiness.
    Every day, across the country, millions of low-income families rely 
on the healthy food their children receive in child care through the 
USDA Child and Adult Care Food Program. CACFP reimbursements, nutrition 
requirements and training support high quality nutrition experiences 
for over 3 million children in child care: more than two-thirds of them 
in child care centers, and the rest in family child care homes. 
Ensuring young children are well-fed in child care promotes their 
health, creativity, capacity to learn and be at their best.
    As a middle class mom who decided to be a child care provider in 
the early 80's, I learned this first hand from my exposure to low-
income children who were in my care. I will never forget the 4-year old 
boy who wondered why I cooked and didn't go get fast food. Johnny's mom 
was poor and struggled to make ends meet. She loved her kids, but did 
not have the resources, knowledge or time to feed them well.
    Unfortunately, under the current system healthy CACFP meals and 
snacks are out of reach for millions of young children in child care. 
Over half the children in child care are in centers or family child 
care homes that do not participate in CACFP. Family child care homes' 
participation in CACFP, which had been one of the fastest growing 
nutrition programs, has dropped 27 percent since the introduction of a 
complex two-tiered reimbursement system in 1997. (Thirteen states have 
had a drop of 42% or more.) Given the crucial role early childhood 
nutrition plays in the cognitive growth and development of a child, and 
the lack of knowledge and/or resources of many working parents, 
expanding access to CACFP is vital to ensuring that all children in 
care settings have the opportunity to grow strong and live healthy, 
productive lives.
    For many children in child care like Johnny, the child care program 
they attend is their primary source of food; they spend 10-12 hours 
each day in care and receive most, and some days all, of their meals 
while there.
    CACFP is a vital source of support for family child care providers, 
centers and Head Start Programs. CACFP sponsoring organizations play a 
critical role in ensuring child care providers can participate in this 
program and serve healthful meals to children under their care. CACFP 
resources, including training and technical assistance, on-site visits 
and reimbursement for food and meal preparation costs, support:
    <bullet> providing good nutrition and preventing childhood obesity 
by teaching children and caregivers about healthy lifestyles and meal 
patterns, and
    <bullet> creating affordable, quality child care.
    Numerous studies throughout the years have demonstrated that the 
CACFP is vitally important to providing young children with the 
necessary nutritional support to have a healthy start in life as well 
as contributing to an improved overall quality of care. (Please see 
Appendix A for summary of research.)
    The reauthorization of the Child Nutrition Programs provides an 
important opportunity to make the necessary improvements to increase 
program access and nutrition quality, and protect the quality of CACFP 
services for children in child care by:
    <bullet> Increasing CACFP reimbursements to improve nutrition and 
stem participation declines;
    <bullet> Raise program reimbursement to support sponsoring 
organizations' nutrition and wellness education requirements, reaching 
and teaching low-literacy providers and rural transportation costs;
    <bullet> Reducing the CACFP area eligibility test from 50 percent 
to 40 percent;
    <bullet> Allowing child care centers and homes the option of 
serving a third meal service (typically this would be a supper or an 
afternoon snack), as was previously allowed;
    <bullet> Updating the CACFP nutrition standards and meal pattern to 
make them consistent with the most recent Dietary Guidelines;
    <bullet> Streamlining program requirements, reducing paperwork, and 
maximizing technology.
    Increase CACFP reimbursements to stem participation declines and 
improve nutrition. Purchasing, preparing and serving more nourishing 
meals and snacks are more expensive. Increasing the availability and 
consumption of fruits and vegetables, whole grains, and lower fat dairy 
products for young children in child care is absolutely essential to 
improve development and health and to prevent obesity at exactly the 
time--early childhood--when it can have the most long-term effect. This 
effort needs to be supported by adequate meal reimbursements. At the 
same time, family child care participation declines created by 
reimbursement cuts need to be reversed. Higher reimbursements will 
assure that more children participate in CACFP, both attracting more 
child care centers and helping to stem the loss of family child care 
providers. A study done in Oregon found that inadequate reimbursement 
rates and paperwork were the top two reasons for providers to leave 
CACFP.
    Raise program reimbursement to support sponsoring organizations' 
nutrition and wellness education requirements, reaching and teaching 
low-literacy providers, rural transportation costs and sustain family 
child care providers participation in the food program. Access to 
healthy meals is threatened by the breakdown in the network of CACFP 
sponsors, the non-profit community-based organizations supporting the 
participation of family child care homes in CACFP. Unable to make ends 
meet due to high program costs and the loss of economies of scale as 
providers dropped out of the program, 28 percent of sponsors stopped 
sponsoring the program in the last dozen years. In a 2006 USDA report, 
researchers reported that ``Costs reported by sponsors on average were 
about 5 percent higher than allowable reimbursement amounts.'' 
Sponsors' administrative reimbursement rates should be brought to the 
level necessary to provide quality nutrition and wellness education, 
cover the transportation costs of serving family child care homes in 
rural areas, and cover the costs of additional visits, and the time 
spent in helping low-income providers overcome literacy and language 
issues. Due to a recession influenced Consumer Price Index, sponsors 
administrative reimbursement rates were recently reduced by one dollar 
per home per month, forcing the elimination of jobs in these community-
based organizations.
    In the worse cases this has created situations such as the crisis 
in Los Angeles where yet another long term dedicated sponsor could no 
longer remain viable within the reimbursement rates. The loss of this 
sponsor left 5,000 children and over 700 providers unserved in a very 
low income community. The cumulative impact of so many sponsors 
dropping out is limited access to CACFP. Limited service can be a 
significant problem in both urban and rural areas.
    In my state over the last 10 years, the number of sponsors dropped 
from18 to only 10. A large challenge for serving Oregon is the size and 
geography of our state. While 67% of all caregivers are concentrated in 
6 counties, providers in the very rural areas deserve to participate as 
well.
    Retention of caregivers is challenging as they must remain eligible 
for the CACFP by meeting training requirements. We have worked to meet 
this challenge by developing and offering online courses. Online 
training in health and nutrition positively impacted our retention of 
child care providers in the CACFP as they now have access to mandatory 
training, regardless of where they live. Among other topics these 
trainings focus on serving more fresh fruits and veggies, low fat milk 
and whole grains and have a secondary benefit of helping them meet 
licensing requirements Partnerships with local colleges and 
universities have allowed us to develop resources as there simply isn't 
enough money from sponsor reimbursements to develop these resources.
    Reduce the CACFP area eligibility test from 50 percent to 40 
percent to streamline access to healthy meals for young children in 
child care. Area eligibility, the most successful and inclusive CACFP 
eligibility mechanism, allows family child care homes in low-income 
areas to automatically receive the highest CACFP reimbursement rates. 
This ``area eligibility'' test has proven extremely effective because 
it substantially decreases the paperwork for providers and families by 
eliminating the need to individually document each child's household 
income.
    Currently, family child care homes only qualify for area 
eligibility in areas with 50 percent or more low-income children (as 
defined by local census data or the percentage of children in the local 
school eligible for free and reduced price meals.) The threshold is too 
high to appropriately target many communities with struggling families. 
This is especially true in rural and suburban areas which do not 
typically have the same pattern of concentrated poverty seen in urban 
areas.
    Reducing the area eligibility test to a 40 percent threshold would 
lead to many more child care providers who serve low-income children 
becoming eligible, and many children in need being served healthy CACFP 
meals and snacks. When confronted with the complex CACFP eligibility 
requirements to be met outside of the areas currently eligible most 
providers choose not to participate. It is easier just to resort to 
serving cheaper, less nutritious meals and operate without the CACFP 
standards, oversight, and required paperwork. It is not uncommon for 
providers to forgo offering even the less costly meals and simply let 
children rely on food sent from home which is often less than 
nutritious.
    Allow child care centers and homes the option of serving a third 
meal service (typically this would be a snack or supper), as was 
previously allowed. As parents work longer hours to make ends meet, 
many more young children are spending more of their waking hours in 
child care on work days. National child care standards, based on the 
best nutrition and child development science, specify that young 
children need to eat small healthy meals and snacks on a regular basis 
throughout the day. Child care centers and homes used to receive 
funding for three meals, until Congress in 1996 cut out one meal to 
achieve budget savings. This penny-wise and pound-foolish step harms 
children's nutrition and health and weakens child care. We should 
restore CACFP support to the full complement of meals young children 
need and stop short-changing young children at a time when they can 
least afford it.
    Improve the nutritional value of the meals and snacks and the 
promotion of health and wellness in child care participating in CACFP. 
Direct the Secretary of Agriculture to issue proposed regulations 
updating the CACFP meal pattern, including recommendations for the 
reimbursements necessary to cover the costs of the new meal pattern, 
within 18 months of the publication of the IOM CACFP Meal Pattern 
report. In the interim, USDA should issue guidance, and provide 
education and encouragement for serving healthier meals and snacks 
consistent with the Dietary Guidelines with an emphasis on increasing 
consumption of whole grains, fruits and vegetables, and lower fat dairy 
and protein foods.
    Streamline program requirements, reduce paperwork, and maximize 
technology to improve program access. This can be accomplished through 
the following no or very low cost proposals which will improve CACFP's 
ability to reach low-income families: 1) allow CACFP sponsoring 
organizations to plan multi-year administrative budgets using carryover 
funds, and to keep their earned administrative reimbursement using a 
``homes multiplied by rates'' system; 2) direct the Secretary of 
Agriculture to reduce paperwork by eliminating ineffective and poorly 
targeted requirements including ``block claiming;'' 3) restore the 
right to advance funds; 4) allow CACFP family child care providers to 
facilitate the return of family income forms; 5) eliminate a barrier to 
participation by allowing the use of the last four digits of the social 
security number; 6) continue the USDA Paperwork Reduction Initiative; 
and 7) streamline program operations, increase flexibility, and 
maximize technology and innovation to reduce parent paperwork and allow 
sponsoring organizations and providers to operate most effectively. 
(Please see Appendix B for more details on the paperwork reduction 
proposals.)
    In conclusion, while the CACFP has been and continues to be an 
important and beneficial child nutrition program, I would encourage the 
Committee to consider improvements to the program.
    We strongly support legislation introduced by Representative Tonko, 
the Access to Nutritious Meals for Young Children Act. The program 
improvements in this bill will help to improve child nutrition, reduce 
hunger, and enhance child development and school readiness. Program 
improvements will also help reduce childhood overweight and obesity, a 
priority about which our First Lady is so passionate.
    I encourage you to visit sponsoring organizations and child care 
homes in your districts. Seeing the program benefits first hand will 
further underscore the importance and opportunities available through 
the CACFP for playing a role in improving children's lives and 
reversing the childhood obesity epidemic. I am certain sponsors and 
providers would be thrilled to have you visit their programs personally 
to see the good work of this important program.
    Thank you for this opportunity to share this information with you 
on behalf of sponsors across the country.
                               appendix a

                    Food Research and Action Center
               Child and Adult Care Food Program Benefits

    Research has demonstrated CACFP's clear role in helping to assure 
good nutrition and high-quality, affordable child care. The program is 
a well documented success:
    <bullet> The U.S. Department of Agriculture's Evaluation of the 
Child and Adult Care Food Program found that children in the Child and 
Adult Care Food Program received meals that were nutritionally superior 
to those served to children in child care settings without the Child 
and Adult Care Food Program.
    <bullet> The Journal of the American Dietetic Association published 
a study, Dietary Intake of Children In Urban Day Care Centers, 
comparing the intake of children at a center using the Child and Adult 
Care Food Program versus a non-participating center and found that 
children at the participating center had significantly higher intakes 
of many key nutrients, including protein, minerals, vitamins, and 
consumed significantly more servings of milk and vegetables, with fewer 
servings of fats and sweets, than the children at the non-participating 
center. Children from the participating center also had fewer days of 
illness than children from the non-participating center.
    <bullet> The Economic Research Service's Maternal Employment and 
Children's Nutrition Volume 1, Diet Quality and the Role of CACFP 
reported, ``An association was found between program participation and 
better overall diet quality (more fruit, milk and variety, and less 
total fat); reduced likelihood of food energy consumption below 90 
percent of the average requirements; and lower levels of soda, other 
soft drinks, and added sugars. These differences especially favor 
children in low-income households.''
    <bullet> Findings from a recently completed study, It's 12 O'clock 
* * * What Are Our Preschoolers Eating For Lunch?, found that when 
comparing the meals and snacks children brought from home to eat in 
child care without CACFP to the meals and snacks served in child care 
with CACFP, meals and snacks brought from home had significantly poorer 
quality than meals and snacks served by CACFP providers. (Children were 
sent to child care with a wide range of foods including items such as a 
McDonald's McGriddle with sausage.) Meal quality was higher for the 
CACFP meals which generally featured more fruits and vegetables, lean 
meat and milk.
    <bullet> A study conducted by the Midwest Child Care Research 
Consortium reported, that ``participation in the USDA Food Program was 
associated with quality. This association held true for family child 
care providers and for infant/toddler center-based regardless of the 
provider's education level.'' In the report, Child Care Characteristics 
and Quality, researchers recommended using CACFP as a way to expand 
training and educational opportunities because ``the USDA Food Program 
has been an important way to augment the quality of programs serving 
low-income children.''
    <bullet> The Families and Work Institute's Study of Children in 
Family Child Care and Relative Care, cited participation in the Child 
and Adult Care Food Program as one of the major factors associated with 
quality care, reporting that 87 percent of the family child care homes 
considered to be providing good quality child care participated in the 
Child and Adult Care Food Program.
    <bullet> The U.S. General Accounting Office's report, Promoting 
Quality in Family Child Care, cited the effectiveness of the program: 
``Because of its unique combination of resources, training, and 
oversight, experts believe the food program is one of the most 
effective vehicles for reaching family child care providers and 
enhancing the care they provide.'' \i\
---------------------------------------------------------------------------
    \i\ Improving Children's Health: Strengthening Federal Child 
Nutrition Programs
---------------------------------------------------------------------------
                               appendix b
Improve CACFP's Ability to Reach Low-income Families by Streamlining 
        Program and Paperwork Requirements (No or Very Low Cost 
        Proposals)
    <bullet> Allow CACFP sponsoring organizations to plan multi-year 
administrative budgets, the use of carryover funds (similar to WIC) and 
the option to keep their earned administrative reimbursement using a 
``homes multiplied by rates'' system similar to the new system recently 
enacted in the Summer Food Service Program. Taking a lesson from the 
success of these administrative mechanisms in the WIC and Summer Food 
Service programs, sponsoring organizations should be given the 
flexibility needed to use their earned reimbursement to provide the 
best services to child care providers in CACFP. This would allow 
sponsors to make adjustments to budgets to account for the level of 
provider participation which is often difficult to predict. Under the 
current system, if a sponsor saves in an attempt to set aside funding 
for a future purchase, for example to buy needed equipment instead of 
paying more through a lease, they are penalized by the reimbursement 
structure and lose the reimbursement. In addition, sponsoring 
organizations, which now have to bring their budgets to a full and 
complete stop at the end of the fiscal year, are sometimes forced to 
cut back on necessary spending towards the end of the year to insure 
their costs do not exceed earned reimbursement.
    <bullet> Direct the Secretary to reduce paperwork by eliminating 
the ineffective and poorly targeted block claiming requirement. The 
block claiming requirement has accomplished little except to generate 
an enormous amount of unnecessary wasted time spent filling out 
meaningless paperwork, driving around using up expensive gasoline, and 
alarming child care providers and parents for very little reason. A 
poorly defined edit check, such as the block claiming requirement, 
defeats the purpose and can actually be counterproductive as it pulls 
valuable resources away from legitimate control functions and 
programmatic objectives. Because the CACFP block claiming lacks 
specificity it identifies and funnels a large portion of false 
positives (legitimate claims) into higher intensity oversight, 
overwhelming other effective system of controls. All indications are 
that the vast majority of providers identified as block claiming under 
the rule are not over-claiming but are accurately recording a normal 
attendance pattern. These normal attendance patterns are reflective of 
a wide range of legitimate situations including homes with a small 
number of children.
    <bullet> Restore the right to advance funds for sponsors and child 
care centers to cover program costs upfront. Some child care centers 
find it too expensive to pay all the CACFP food costs up front for 
several months before the first CACFP payment arrives. Advance funds, 
when a state chooses to offer them, can help to bridge that initial gap 
and ease the way for centers serving many low-income children to 
participate in CACFP. Some sponsoring organizations face similar 
problems and rely on advance funds. Sponsors regularly wait for up to 
two months before their claims for reimbursement are paid by the State. 
PL 104-193 reversed a long standing provision of the law and allowed 
states the option to eliminate advance funds. The right to advances 
should be restored to address access problems generated in areas where 
the funds have been removed.
    <bullet> Allow CACFP family child care providers to facilitate the 
return of participating children's family income form. For parents 
willing to share their forms with their family child care providers 
this option could make participation in the program much easier. 
Parents can just hand their CACFP forms with their provider when they 
bring their child to child care. If the parent forgot to sign the 
document or failed to include other important information, the provider 
will be able to tell the parent right away and explain how to remedy 
it.
    <bullet> Eliminate a barrier to participation by allowing the use 
of the last four digits of the social security number. Many parents are 
concerned about giving their full social security number on CACFP 
applications because of fears of identity theft. Using just the last 
four digits, like so many receipts and records these days, will allay 
parents fear and make them more willing to return the necessary CACFP 
forms for their children to participate in the program.
    <bullet> Continue USDA Paperwork Reduction Initiative. We recommend 
USDA continue to build on the success of its Paperwork Reduction 
initiative including reconvening the work group.
    <bullet> Streamline program operations, increase flexibility, and 
maximize technology and innovation to allow sponsoring organizations 
and providers to operate most effectively. There are a wide range of 
possibilities for accomplishing this goal, a number are listed below:
    <bullet> Allow the use of existing attendance records instead of 
re-counting heads at meal time and snack time. Detailed attendance 
records are kept every day at child care programs. These records are 
sufficient, when coupled with food purchase and meal service counts, to 
determine consumption of meals and snacks each day.
    <bullet> Allow total counts of meals and snacks served; stop 
requiring a name list and check-marks to indicate each individual child 
ate which meal and snack. Total numbers are sufficient for ensuring 
accountability of public funds to serve nutritious meals and snacks.
    <bullet> States should also accept electronic print-outs of daily 
attendance records. Currently, not all states allow this, and instead 
require providers to manually prepare an additional list to document 
attendance for CACFP records separate from the attendance records they 
keep for the child care center as a whole.
    <bullet> Establish permanent operating agreements for eligible 
child care programs with an annual update only if an update is needed 
to reflect program changes and to ensure continued compliance. If there 
have been no changes, there should be no update required. This would 
alleviate one of the many layers of paperwork involved in program 
participation.
    <bullet> Require states that require both income eligibility and 
enrollment forms to combine the forms into one. Parents should not have 
to complete two nearly duplicative forms.
    <bullet> On parent information forms, collect only the last four 
digits of the Social Security number to prevent identify theft and 
ensure parent participation in the eligibility process.
    <bullet> Allow states to collect scanned documentation in place of 
duplicate paper copies. This would cut down on the need to make 
multiple copies of documentation, and to maintain those copies at the 
child center (and, for multi-site operators, reduce the duplicate 
paperwork also kept in the headquarters office). This would also reduce 
the quantity of paper and help CACFP to ``go green.''
    <bullet> Allow two-year contracts with food vendors where possible. 
Allowing the opportunity to lock in a good rate for a two-year contract 
would be better than annual reapplications, and would save providers 
and state and federal agencies valuable time and money.
                                 ______
                                 
    Chairman Miller. Ms. Saluja.

  STATEMENT OF KIRAN SALUJA, MPH, RD, DEPUTY DIRECTOR, PUBLIC 
              HEALTH FOUNDATION ENTERPRISES, INC.

    Ms. Saluja. Good afternoon, Mr. Chairman, Ranking Member 
Kline, distinguished members of the committee, staff, and thank 
you so much, Congresswoman Chu, for the very nice introduction.
    I am Kiran Saluja. I am here from Los Angeles. I work with 
this very large organization that Dr. Chu told us about. And I 
am also here as the voice of the National WIC Association, 
which essentially is an advocacy voice of over 12,000 service 
agencies that provide WIC services to over 9.2 million 
participants throughout the country. Of these 9.2 million, 7 
million are infants and children under the age of 5.
    And exactly what we are talking about here today, 
preventing childhood obesity, really needs to start in the WIC 
program. And I am here to tell you that we have a solution. We 
can actually start to prevent childhood obesity from the day 
the child is born, and the way we do it is by ensuring that 
this child gets exclusively breastfed. Not only does he get 
exclusively breastfed at birth, but he gets some duration, 
because, according to the Centers for Disease Control and 
Prevention, we can prevent 15 to 30 percent of childhood 
obesity if the child is breastfed. The greatest protection 
happens when the child gets no formula, no solids, and it goes 
on to at least 6 months.
    Now, this is the magic pill. Why haven't we embraced it? 
Well, it certainly isn't for lack of effort, because I want to 
thank all the members of this committee. I want to thank 
Chairman Miller specifically, and Representative Carolyn 
McCarthy, the chair of the Healthy Families Subcommittee. 
Thanks to all of you, the Ag Appropriations Committee bill 
provided a major expansion. They quadrupled the breastfeeding 
peer counseling moneys in the last bill. They created a new 
breastfeeding performance bonus, which is very unusual and was 
extremely welcomed by WIC agencies and provided new funding for 
evaluation of program effectiveness.
    The WIC food package was like manna from heaven for all the 
WIC providers. We had been waiting for it to change, and in 
October of 2009 it did change, and it is a fabulous tool for us 
to really get out there with good nutrition messages. And, it 
has a little extra food for the fully breastfeeding mother, 
which helps us package exclusive breastfeeding.
    Now, you might say, well, what is WIC doing with 
breastfeeding? Well, our rates are increasing but they are 
increasing very slowly. And we are lagging behind the national 
data because non-WIC moms do better than WIC moms. And so why 
is that happening? Well, I am here to ask you for five things. 
Everybody is asking you, so I am sorry.
    I have five asks. Number one, we would really like you to 
direct Food and Nutrition Services to restore the $2 increment 
that the fully breastfeeding moms had when they had that little 
extra edge. It doesn't sound like a lot, but that $2, you know 
that WIC staff out in the field can really leverage it when 
they are working with a mom when she is kind of vacillating: I 
don't know, what should I do? Well, you know you get extra 
fruits and vegetables. So, we would really like to see that put 
back in.
    We would like you to make us some time, so we can help 
mothers where they need the support. And you might say, well, 
how I am going to do that? I can't create time. Well, yes, you 
can. You can help us by extending certification for children--
that is 40 percent of our participants--to 1 year. We do that 
for breastfeeding moms. We do that for infants. We should do it 
for children. That would release precious minutes that 
breastfeeding mothers need for support.
    Now, what about barriers external to WIC, because everybody 
doesn't live in the WIC world. If they did, trust me, we 
wouldn't have childhood obesity and we would have everybody 
breastfeeding because that is how committed your WIC staff is 
out there. Well, the external barriers to breastfeeding really 
mean comprehensive policy changes in the institutions that our 
mothers go to outside of WIC, because we really need to 
optimize this money that has been put into WIC to do what we 
should be doing. And I am really speaking specifically of 
unsupportive infant feeding policies in health care systems. I 
am speaking of the intense direct marketing of infant formula, 
and I am speaking of poor community and workplace support.
    So what I am asking you all is to really--I hate the 
cliche, think outside the box, but think outside the box and 
work with Members of Congress and figure out how can we tackle 
this problem, how can we pass legislation that says if there 
are Medicaid births happening in a hospital, that hospital 
should not sabotage breastfeeding, it should support 
breastfeeding. And you might say, how does it sabotage breast 
feeding? Babies get given formula bottles right at birth. 
Mothers get separated from their babies. It is not that people 
want to be mean, it is just the policy. It is like an archaic 
policy that needs to be changed and there are hospitals now 
that have embraced policies. Outcomes are different.
    Oregon has some very wonderful hospitals. Northern 
California does. Throughout the country we have some very good 
models. I would love us to have many more of them throughout 
the country.
    What about marketing of infant formula? You might say, 
well, you know--my time is almost up--moms get very confused 
with marketing messages. They come to WIC and they say, Can I 
have that breast milk in a can? And we are like, there is no 
such thing. And it is because they get free formula when they 
leave the hospital, they get formula, coupons, and free formula 
at their doorstep.
    This has to stop. We are spinning our wheels in the WIC 
program. Our mothers are suffering and our babies are getting 
fatter and none of us really want that. I know my time is up so 
I will not keep that beautiful quote that I had at the end.
    I had two more asks, but they are in my written testimony. 
Thank you for indulging me. I really appreciate your attention.
    Chairman Miller. Thank you very much.
    [The statement of Ms. Saluja follows:]

              Prepared Statement of Kiran Saluja, MPH, RD,
                   Deputy Director, PHFE WIC Program

    Good morning Chairman Miller, Ranking Member Kline and 
distinguished Members of the Committee. I am honored by this 
opportunity to address the Committee and applaud your commitment to WIC 
and the Child Nutrition Programs.
    I am Kiran Saluja, Deputy Director of the non-profit Public Health 
Foundation Enterprises WIC Program in Irwindale, California. PHFE WIC 
is the largest local agency WIC Program in the nation serving 326,350 
participants every month. In our agency, we enroll 60,000 newborns 
annually, delivered at over 80 birthing hospitals in the nation's most 
ethnically and culturally diverse, densely populated counties--Los 
Angeles and Orange County, California.
    I am testifying today on behalf of the National WIC Association 
(NWA), the education and advocacy voice of the over 9.2 million 
participants and 12,200 service agencies of the Special Supplemental 
Nutrition Program for Women, Infants, and Children, known as WIC. A 
copy of the Association's 2010 WIC Reauthorization recommendations and 
statement on WIC's Role in Preventing Maternal and Childhood Overweight 
and Obesity have been attached to my submitted testimony.
    I am honored to have this opportunity to share some of our 
breastfeeding promotion, support and advocacy strategies and our 
successes.
    ``Breastfeeding is a natural ``safety net'' against the worst 
effects of poverty. If the child survives the first month of life (the 
most dangerous period of childhood) then for the next four months or 
so, exclusive breastfeeding goes a long way toward canceling out the 
health difference between being born into poverty and being born into 
affluence. * * * It is almost as if breastfeeding takes the infant out 
of poverty for those first few months in order to give the child a 
fairer start in life and compensate for the injustice of the world into 
which it was born.''
    These words by James P Grant, former Executive Director of UNICEF, 
may well have been written for the millions of infants and children 
served by the WIC Program. This is because WIC, along with AAP, CDC, 
WHO and many other health organization, has long understood that 
breastfeeding offers far-reaching benefits for mothers and babies. 
These organizations unanimously support exclusive breastfeeding as the 
preferred, normal and species specific way to feed babies for at least 
the first six months of a baby's life. Increasing exclusive 
breastfeeding rates among low-income women is a key strategy for health 
improvement in general--and particularly for the prevention of 
childhood obesity.
    The collective efforts of WIC Programs across the country at 
promoting and supporting breastfeeding have resulted in an increase in 
breastfeeding rates. According to the most recent WIC Participant 
Characteristics Report, breastfeeding rates are at record highs--58% 
initiation and 28% at 6 months. It is true however that despite the 
continued rise in breastfeeding rates overall, these rates are lower 
than the Healthy People 2010 goal of 75% breastfeeding initiation and 
50% at 6 months. At PHFE WIC our comprehensive collective efforts have 
demonstrated an increase in the numbers of infants breastfed at newborn 
enrollment. The dramatic effect of the changes to the WIC food package 
was most apparent in October 2009 when the rate of exclusively 
breastfed newborns enrolled in the PHFEWIC program jumped to a record 
high of 44.8%. [see graph on next page]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    There is also a slow but definite increase in the DURATION of 
breastfeeding among PHFEWIC's 60,000 infants as is seen in the graph 
below. Notice all ages depicted (2, 4, 6, 12 months) show a steady 
upward trend.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Last year, in the Agriculture Appropriations bill, Congress created 
huge opportunities for WIC to make quantum improvements in 
breastfeeding rates, which the WIC community is really excited about. 
The WIC community is grateful to Representative Carolyn McCarthy, Chair 
of the Healthy Families and Communities Subcommittee, and to Chairman 
Miller for their vision and leadership in promoting increased funding 
for WIC breastfeeding initiatives through legislation extending WIC and 
the Child Nutrition Programs through September 2010 signed into law 
last year. The bill provided a major expansion of Breastfeeding Peer 
Counselor (PC) programs by increasing funding fourfold, as well as 
supporting (1) creation of a new performance bonus for states that 
achieve high rates or increased current rates of exclusive 
breastfeeding and (2) new funding for evaluations of program 
effectiveness. (Aside from the WIC appropriations, coverage for 
breastfeeding support, including the use of Peer Counselors, was 
written into all pending versions of health care reform legislation, 
since it has been approved and recommended by the US Preventive 
Services Task Force.)
    As you know, the increase in PC funding represents a substantial 
increase, from $20 million to $80 million this fiscal year, which 
should enable state and local WIC agencies to assist many, many more 
WIC mothers with effective support for increased breastfeeding 
initiation, duration and exclusivity.
    Coupled with the major policies around breastfeeding and infant 
feeding that were a key component of the WIC food package changes we 
implemented last October, this incredible boost in breastfeeding 
investment means that a real opportunity now exists for the WIC 
community to achieve--and document--increased rates of exclusive 
breastfeeding in a population that is disproportionately impacted by 
the poor health outcomes including obesity, diabetes, and other chronic 
disease, which breastfeeding can help prevent.
    Robust and well-designed evaluations of peer counseling and other 
breastfeeding interventions are critical in assisting state and local 
WIC agencies determine the most efficient and effective strategies for 
increasing the rates and duration of exclusive breastfeeding in our 
diverse population. The new WIC breastfeeding performance bonus can 
then be used to encourage state and local WIC agencies to adopt 
breastfeeding promotion and support strategies that really work. The 
performance bonus is a groundbreaking policy. For the first time in our 
history, this new provision challenges WIC to go beyond our important 
core function of serving all the families we can, to actually beginning 
to work towards concrete and measurable public health outcomes.
    In 2005, the Institute of Medicine (IOM) recommended an enhanced 
breastfeeding food package to encourage and support mothers who choose 
to fully breastfeed. The USDA Food and Nutrition Service (FNS), in 
publishing its Interim Final Rule on the WIC Food Packages correctly 
emphasized the distinction between the fully breastfeeding food package 
and other food packages for women when it set the fruit and vegetable 
cash value vouchers for this food package at $2 above the value for 
other food packages for women. These changes in the WIC Food Package 
provided WIC staff unprecedented opportunities to market the enhanced 
food benefits for ``fully'' (i.e., exclusively) and ``mostly'' 
breastfeeding mothers and babies. The fiscal year 2010 Agriculture 
Appropriations Act directed FNS to increase the fruit and vegetable 
cash value voucher to the IOM recommended value for all women to $10, 
eliminating that important distinction.
    I urge the Committee to:
    A. Maintain the enhanced value of the fully breastfeeding food 
package, as recommended by the IOM and as proposed by FNS in the 
Interim Final Rule, and direct FNS to set the breastfeeding fruit and 
vegetable cash value voucher for the breastfeeding package at $12 vs. 
$10 for all other women.
    B. Maintain funding for robust and strategic evaluations of WIC, 
including the impact of breastfeeding, and food package changes on 
participant health behaviors and outcomes.
    C. Support the Breastfeeding Performance Bonus and provide $10 
million in performance bonus payments (to be treated as program income) 
to State agencies that demonstrate the highest proportion of breastfed 
infants, as compared to other State agencies participating in the 
program; or the greatest improvement in proportion of breastfed 
infants, as compared to other State agencies. When providing 
performance bonus payments to State agencies, FNS should consider a 
State agency's proportion of participating fully breastfed infants.
    WIC's breastfeeding education and promotion efforts are well in 
sync with the enhanced foods of the new WIC food packages for babies as 
well as mothers. Throughout the nation WIC staff received intensive 
training in how they would no longer be routinely providing infant 
formula in the first month, instead offering lots and lots of 
breastfeeding support. To reach extended duration and have mothers 
breastfeed fully to one year, the extra foods for babies at six months 
are expected to prove an added bonus. Staff is spending more time 
counseling new mothers and at subsequent visits working with mothers to 
resolve breastfeeding challenges to keep mothers as mostly or fully 
breastfeeding. All of this takes time. To allow sufficient time for 
ongoing breastfeeding support we must look at releasing precious 
minutes from other activities.
    Currently states have the option to certify infants and 
breastfeeding women for one year at a time. However, the current 
eligibility period for children--who make up nearly two-thirds of those 
enrolled in WIC--remains every 6 months. This simple change would allow 
WIC frontline staff to redirect their focus from costly paperwork to 
the provision of nutrition education, enhanced breastfeeding support 
and anticipatory guidance.
    I urge the Committee to give States the option to certify children 
for one year.
Peer Counseling Funding
    The needs of WIC mothers for breastfeeding support vary greatly 
with culture, age, education, assimilation, employment, family support 
or lack thereof, and a host of other variables. Hospital practices are 
critical to affect positive or adverse outcomes. At PHFEWIC some of our 
WIC sites enjoy very high Fully Breastfeeding rates; at some sites over 
80% of newborns do not use any infant formula and at two months over a 
third of the babies are still Fully Breastfed. However, at some of our 
sites the picture is quite the reverse!
    At the sites with very low breastfeeding rates we have found Peer 
Counselors to be the solution! The additional funding for Peer 
Counselors was met with roars of approval and has infused WIC programs 
with the hope that they can really step up the support for our mothers. 
We, at PFFE WIC, are excited at the prospect of tripling the number of 
our Breastfeeding Peer Counselors from 7 to 21 of our 54 sites! Peer 
Counselors are undoubtedly an integral part of a spectrum of 
breastfeeding support however we must be realistic that we cannot 
provide their level of services and support out of regular Nutrition 
Services funding. The WIC community is grateful that this Committee and 
our partners at USDA recognize that Peer Counseling services are 
resource and funding intensive and have provide targeted funding for 
expanding the Peer Counseling program.
    The National WIC Association applauds the Committee for its support 
for Peer Counselors and urges that $83 million be targeted for special 
nutrition education such as breastfeeding Peer Counselors and other 
evidence based diversified breastfeeding related activities. We urge 
Congress to give WIC agencies the flexibility to work collaboratively 
with health care partners to find the most successful methods for 
supporting exclusive breastfeeding for six months in each community.
Breastfeeding Broken Hospitals
    It is my dream to see that every WIC baby gets a fair start in life 
through exclusive breastfeeding I want them to get the documented 
benefits, which include significantly reduced risk for infections and 
for chronic diseases such as diabetes, asthma, and obesity among 
children, as well as fewer visits to the doctor's office, fewer days of 
hospitalization, and fewer medications than children who are formula-
fed. Newer studies from Europe have even demonstrated that breastfed 
children scored significantly higher on cognitive and IQ tests than 
control group children.
    I have spent the past 25 plus years of my life working to realize 
my dream of seeing every WIC mom and baby breastfeed. WIC is unique in 
that it is the only federal nutrition program with a mandate, backed by 
serious funding, to promote and support breastfeeding. WIC 
breastfeeding education ensures that all enrolled pregnant women learn 
about the whys and ``how to-s'' of breastfeeding. They receive 
individual education, share their experiences in small groups, and get 
consistent support and encouragement to exclusively breastfeed.
    Thanks in large part to the WIC Program's efforts, breastfeeding 
initiation rates among low-income women have increased in the last 
decade. However, exclusive breastfeeding rates remain challenged--
indicating widespread supplementation of breast milk with formula. 
Using formula undermines breastfeeding because it interferes with a 
mother's ability to establish her breastmilk supply. Duration of 
breastfeeding beyond the first few months is also rare in the WIC 
population. Data from the CDC reported in 2009 in the Breastfeeding 
Report Card indicated that only one in three babies in the country were 
exclusively breastfed at three months and a mere 13.6 percent at 6 
months.(1) I can say with a great degree of assurance that WIC babies 
were a very small fraction of those numbers. In California, only about 
18% of WIC mothers are still breastfeeding after the first three 
months. At my larger agency exclusive breastfeeding drops off rapidly 
with 41 percent of our mothers breastfeeding in the first month to 
merely 12 percent breastfeeding exclusively at 6 months.
    Why are exclusive breastfeeding rates so low? In the face of 
intensified marketing of infant formula, inadequate infant-feeding 
policies in healthcare systems, and poor social supports, attempts to 
increase breastfeeding among WIC mothers to meet their self expressed 
goals can only be successful with comprehensive policy change in the 
institutions serving them. In particular, maternity hospital policies 
directly influence all future breastfeeding behaviors by either 
facilitating or undermining them. Sadly, breastfeeding too often 
starts--and ends--in hospitals during the first few hours of life. 
While some hospitals throughout the nation work collaboratively with 
breastfeeding professionals to assure a positive in-hospital 
breastfeeding experience, far too many are breastfeeding-broken 
hospitals.
    By way of example, I would like to address a situation with which I 
am most familiar. Los Angeles County has the lowest breastfeeding 
rates--and the worst disparities--in California. Unless a baby is born 
in one of four hospitals on the more affluent West side of the county, 
there is less than a 50% chance that a mother will breastfeed 
exclusively, especially if that baby's mother is low income and non-
white. Nine out of California's 15 maternity hospitals with the worst 
rates of exclusive breastfeeding initiation are located in Los Angeles, 
with Orange County close behind.
    WIC mothers who wanted to breastfeed and were confident that they 
could breastfeed are systematically undermined at every step once they 
enter breastfeeding-broken hospitals. Where mammals should be kept 
together with their young, babies are routinely taken away from their 
mothers at the very moments and hours that the breastfeeding instinct 
is the strongest and ``skin to skin'' contact is critical. Instead, 
babies are bundled into warmers and tucked into plastic bassinets with 
little bottles of infant formula conveniently placed inside. Mothers 
``recover'' alone and babies are brought to them, often after a formula 
feed, sated and sleepy. Mothers feel dejected when the newborns nuzzle 
lazily at the breast, but show no desire to latch on.
    This scene is repeated every few hours and the mother is convinced 
that her baby does not ``like her breast''. She is unsure of how to 
hold her baby, hold her breast, may be in pain, and further may not 
speak the language of the hospital staff or be intimidated by the 
system. Many nurses, with busy charting demands and perhaps lacking 
breastfeeding related training, may add to the new mother's self doubts 
by passing unhelpful comments ``Oh, your breast are so big''; ``don't 
you know how to put your baby to the nipple''? Etc. At other times the 
baby may instinctively start suckling at the breast but, having 
previously been imprinted by the rubber nipple of the formula bottle 
which has a very different flow pattern, may not know how to ``milk'' 
the breast. The sucking is ineffective, milk flow slow and this of 
course frustrates the baby; the baby cries and gets off the breast, a 
caring nurse or relative offers another bottle, the baby guzzles 
hungrily and the die is cast! And another one bites the dust! One more 
WIC mother and baby leave the hospital, at best breast and formula 
feeding or, at worst, fully formula feeding! Their next stop is WIC * * 
* not for breastfeeding support but for infant formula!
    Every day frontline WIC staff experience frustration when they see 
firsthand how breastfeeding-broken hospital policies and practices 
sabotage a WIC mothers' desire to breastfeed in the critical first few 
days of life. These moms--who have previously indicated their desire to 
breastfeed--return to WIC for their first post-partum appointment 
already bottle-feeding, with their milk supply already compromised.
    Until breastfeeding-broken hospital policies change, WIC 
breastfeeding educators and mothers will continue to swim upstream. 
Until we address the wider issue of breastfeeding-broken hospital and 
healthcare policies and practices through strategic reforms, WIC will 
not see maximum returns from its huge investment in breastfeeding 
promotion and support: concrete and measurable health improvements for 
low-income families. Failure to address the stark differences in 
breastfeeding rates in the U.S. will exacerbate the deepening health 
and social inequities we face, and continue to generate increased 
public costs we cannot afford.
    An important place to start to help WIC succeed in its 
breastfeeding support and promotion efforts would be to fix the 
breastfeeding--broken hospitals! While I recognize this may be beyond 
the purview of this Committee, I am compelled to ask you to work 
collaboratively with your colleagues on the Energy and Commerce 
Committee and Ways and Means Committee to pass legislation that 
requires that all hospitals that receive Medicaid funds adhere, at a 
minimum, to a set of model policies that do not sabotage breastfeeding, 
and at best initiate steps to become a Baby Friendly Hospital.
Formula Marketing
    Families with new babies are in a constant state of learning--
feeding, changing, bathing, and soothing the baby. This can be a 
bewildering experience. New mothers are insecure about their breast 
milk supply; whether they are producing enough of this elixir that 
cannot be measured in ounces in a calibrated bottle and which the baby 
wants at very frequent intervals in the first few days. This in a world 
where formula feeding defines the normative model for infant behavior; 
families expect a baby to eat every three hours, sleep in between, and 
finish 2-3 ounces at a feeding. BUT THAT IS NOT THE BREASTFED BABY 
NORM! This baby eats a little bit all the time; newborns have teeny 
tiny stomachs that get filled up quickly. Moreover, mother's milk, 
being the perfect food, is digested quickly! WIC can promote 
breastfeeding to our sincerest heart's content, but how do we get 
breasts and apparently always hungry newborn breastfed babies to 
compete with the images of the contented cherubic formula fed babies 
promoted by Madison Avenue?
    Advertisements about ``comfort proteins''--there is no such thing--
in one type of infant formula float around a happy baby on TV, while 
DHA supplemented formulas claim to be just like ``mother's milk in a 
can'' and new ``designer formulae'' hit the market at regular intervals 
(Lipil today, Premium tomorrow, Lactofree today and Sensitive 
tomorrow!). With smart salespersons who regularly stalk hospital 
nurseries and pediatrician's offices, new formulae find willing 
peddlers in health care staff who want to ``help'' mothers with a can 
of the latest sample! Can mother's milk compete in this market?
    Coincidently, just when WIC education about the miracles of 
colostrum (the first milk) and the innumerable benefits of breast milk 
begins to resonate with mothers at about two weeks post partum there is 
an incredibly timed delivery of FREE INFANT FORMULA, or/and coupons for 
formula at the mother's doorstep. For the family this is like manna 
from heaven! The formula is given to the baby and the mother's 
breastmilk, produced by the body in a demand-supply continuum, further 
diminishes. What chance does breastmilk have in this battle for the 
baby share? Not a lot, as is evidenced by the billions of dollars spent 
by WIC on infant formula.
    Infant formula companies battle for market share against a unique 
product: breast milk, a living food that contains hundreds of active 
biological substances that cannot be manufactured and are not present 
in infant formula. Truly a ``designer'' food, breast milk varies from 
woman to woman, from day to day and from hour to hour in response to 
the needs of that particular baby who was birthed by the mother. As 
breastfeeding rates have slowly and steadily increased, particularly 
among low-income women, the formula industry has grown more aggressive 
in its attempt to regain market share, particularly by pushing formula 
supplementation (i.e., combining breastfeeding and formula feeding).
    In 1994, the United States signed on to the International Code for 
Marketing of Breastmilk Substitutes of the World Health Organization, 
which prohibits direct marketing of infant formula to mothers and 
health care providers. However, there are increasing reports that U.S. 
formula companies are violating the WHO Code through a number of means: 
routine and widespread direct marketing, including saturation 
advertising to mothers with billboards and magazine ads; detail 
marketing to healthcare providers; and provision of free formula to new 
and expectant mothers via discount coupons, direct free shipments of 
formula, and hospital discharge packs.
    A 2006 Government Accountability Office (GAO) report documented 
marketing practices and how much formula manufacturers spend on them. 
As the U.S. birth rate levels off, growth in the domestic infant 
formula market is primarily being driven by price increases, not by the 
quantity of formula sold. To maintain profitability, formula 
manufacturers have raised their prices by creating a dizzying array of 
new product lines and additives that come with attractive--though 
scientifically questionable--health claims. Examples of claims for more 
recent formulations tout relief for ``fussy babies'' or ``gas.''
    Although these products include FDA-approved ``designer'' 
ingredients, which have been ``generally recognized as safe'' according 
to FDA standards, the direct health benefits of these additives have 
not been proven. The most disturbing direct advertising for these more 
expensive ``new'' formulas subtly undermines the obvious and proven 
superiority of breastfeeding by positioning formula as more and more 
equivalent to breast milk, as demonstrated by the following text on a 
company website: ``Closer Than Ever to Breast Milk! * * * The first and 
only infant formula that has a unique blend of prebiotics, nucleotides, 
and antioxidants--nutrients naturally found in breast milk. Plus, it 
has DHA and ARA, ingredients shown to help your baby's brain and 
eyes.'' WIC providers report that this kind of marketing is causing 
confusion among WIC participants using infant formula, who sometimes 
ask if WIC provides ``the breast milk in a can.''
    Thus another important way to help WIC promote and support 
breastfeeding, would be for the Committee in collaboration with your 
partners in Congress to make a determined effort to eliminate or 
sharply curb the blatant direct marketing of infant formula, which 
violates the WHO code and targets vulnerable low income women of color.
Breastpump Funding
    WIC mothers at 3--4 weeks post partum face a whole new set of 
obstacles to their breastfeeding goals. The few, the determined, those 
that WIC staff are able to ``rescue'' and who are still breastfeeding 
without formula may have to think about returning to work!
    California and twenty-four states, the District of Columbia and 
Puerto Rico have laws related to breastfeeding in the workplace 
(Arkansas, California, Colorado, Connecticut, Georgia, Hawaii, 
Illinois, Indiana, Maine, Minnesota, Mississippi, Montana, New Mexico, 
New York, North Dakota, Oklahoma, Oregon, Rhode Island, Tennessee, 
Texas, Vermont, Virginia, Washington and Wyoming).
    Many WIC programs advocate for their working breastfeeding mothers 
and many, thanks to the support of this Committee and Congress, have 
breastpumps that are loaned free of charge to WIC participants so they 
can pump breastmilk while at work. Needless to say, at PHFEWIC, we do 
not have enough breastpumps to support all our working mothers. Pumps 
are given preferentially to those women whose babies are in the 
Neonatal Intensive Care Units (NICUs) with only the remaining pumps 
going to the WWPP (working women pump program). A study of this program 
showed that WIC working mothers, who received a pump from the WIC 
program, exclusively breastfed for 120 days MORE THAN comparable 
working mothers who were not able to get a breastpump from WIC. (JHL, 
2008, Meehan et al).
    In 1999, Congress approved a National WIC Association proposal to 
allow the use of food dollars for the much needed purchase of breast 
pumps to support working mothers. In 2005-2008, as the nation began to 
experience a growth in the numbers of women and families in poverty and 
an increase in the working poor, the Program was forced to turn to 
contingency funds to support rapidly expanding caseload. USDA placed 
restrictions on the use of those funds, preventing WIC agencies from 
purchasing breastpumps with those resources. I urge the Committee to 
direct USDA to allow use of contingency funds for breast pump purchase 
to guarantee breastfeeding mothers the critically necessary feeding 
aids to support their healthy breastfeeding choice in the workplace.
Federal Breastfeeding Support
    Appreciating the external challenge we face in the WIC Program, 
Congress has recognized the importance of WIC breastfeeding promotion 
and support and has steadily increased the funding available to support 
this effort. WIC staff has not only embraced, but championed 
breastfeeding personally and professionally. Within WIC we have clearly 
established breastfeeding as the expectation and the norm.
    Like other WIC agencies across the nation, PHFEWIC has embraced the 
culture of breastfeeding and assures a breastfeeding--friendly work 
environment. The 700 or so employees at PHFEWIC give birth to 22 to 28 
babies every year and largely due to an effective employee perinatal 
support program almost all of our staff breastfeeds exclusively in the 
hospital, at six weeks, and when they return to work. Indeed, we have 
some very long term breast feeders (beyond 2 years) and even have staff 
that have tandem breastfed (2 babies, different ages: 2 months and 17 
months). Our staff enjoys incredible support from the time they report 
their pregnancy until they stop breastfeeding. They are better 
counselors for having had such good personal experiences and working in 
such supportive environments. Staff support for breastfeeding is a 
common thread for WIC programs throughout the nation. For staff, WIC is 
the breastfeeding mecca.
    Our participants, however, live in the REAL world! They make forays 
into the WIC breastfeeding world once a month, but then return to their 
``formulagenic'' world and may access other services and programs--many 
of them federally funded--that are not breastfeeding friendly. As an 
example, WIC moms who are TANF recipients are required to attend 
trainings after they have delivered their babies. They are discouraged 
to attend with their newborn-3 month old babies; this is NOT a 
breastfeeding friendly policy. Staff at various assistance programs 
have been known to ask women to leave the premises if they breastfeed 
their babies. This, too, is NOT a breastfeeding friendly policy.
    The bottom line here is that we must do everything in our power to 
support WIC in its efforts to make breastfeeding the cultural norm.
    On behalf of the National WIC Association, I urge the Committee to:
    a. Emphasize ``breastfeeding promotion and support'' as an integral 
part of nutrition education and add such language (breastfeeding 
promotion and support) to each citation related to WIC for nutrition 
education in the Child Nutrition Act of 1966.
    b. Ensure that ALL federal programs serving families, in 
particular, but not limited to the Supplemental Nutrition Assistance 
Program and the Child Care and Adult Food Program are breastfeeding 
friendly and that the employees have, at a minimum, a clear 
understanding that breastfeeding mothers and babies will be supported.
WIC-led Collaboratives
    Slightly more than one out of every two infants born in the US 
participates in the WIC program. For the PHFEWIC program this 
translates into 5000 new babies each month. While we can, (and we HAVE) 
changed WIC policy, procedures, food benefit packages, created special 
funding for Peer Counselors, and recognized the need to fund the 
purchase of breast pumps, the reality is that WIC breastfeeding efforts 
do not exist in a vacuum. Our families live in the REAL world, not the 
breastfeeding utopia that many WIC sites have become. The best news is 
that we have willing and eager partners that are hungry to join hands 
with us and collaborate to effect the environmental changes that will 
ultimately lead to the optimal duration of exclusive breastfeeding.
    WIC Programs across the nation work hard to collaborate with all 
manner of partners to encourage breastfeeding success. In the Los 
Angeles area the various local agencies that provide WIC services came 
together over 15 years ago and partnered with the La Leche League, 
local lactation professionals, hospital staff and breastfeeding moms to 
form a coalition: The Breastfeeding Task Force of Greater Los Angeles. 
Today this Task Force is a respected national entity, sought out by 
local, state and federal funders to provide a myriad of programs and 
projects to impact breastfeeding. WIC and the Task Force collaborate on 
privately funded projects to advocate for WIC participants, to make the 
workplace more breastfeeding friendly, and to keep up the pressure to 
move hospitals along the path to becoming Baby Friendly.
    Exemplifying collaborative partnerships, NWA is hosting a special 
Breastfeeding Summit here in Washington D.C. on Tuesday, March 9, 2010 
to shine the spotlight on the assortment of successful WIC initiatives 
throughout the nation and to promote, support and advocate for 
breastfeeding mothers and babies enrolled in the WIC program. As the 
nation's premier public health nutrition and prevention program with a 
clear funded mandate to promote breastfeeding, WIC is staking it's 
rightful claim as the nation's breastfeeding support and promotion 
leader and inviting partners to join hands with us.
    Full engagement and leadership in local or state collaboration 
efforts focused on breastfeeding promotion, while desirable and 
necessary, present challenges for many WIC programs due to resource 
limitations and staffing constraints. Resources are sorely needed to 
create WIC--led breastfeeding collaboratives which aim to bring key 
stakeholders together to ensure seamless breastfeeding support for low 
income women in their communities.
    WIC mothers and babies need the same opportunities and support to 
breastfeed their babies fully like their wealthier, more educated, 
mainly white sisters, who are outside of the WIC world. Our challenge 
is to reduce the chasm between the breastfeeding rates among WIC and 
non-WIC populations and have good credible sources of data to evaluate 
our progress. Across the nation, dedicated, creative and indefatigable 
WIC staff roll up their sleeves everyday and get ready to promote and 
support breastfeeding.
    There is a new enthusiasm in the air, the buzz around the 
supportive food package, the funding for Peer Counseling, the growing 
recognition that breastfeeding can play a major role in improving the 
health and well-being of an entire new generation of citizens. We are 
pinning our hopes on you. I want to sincerely thank you, members of the 
Committee, for allowing me to share a bit of my passion with you today.
                                 ______
                                 
    Chairman Miller. Ms. Gettman.

    STATEMENT OF LUCY GETTMAN, MA, MSW, DIRECTOR OF FEDERAL 
          PROGRAMS, NATIONAL SCHOOL BOARDS ASSOCIATION

    Ms. Gettman. Chairman Miller, Ranking Member Kline, my name 
is Lucy Gettman. I am director of Federal programs for the 
National School Boards Association. As a former child nutrition 
advocate, and now an advocate for school boards, I thank you 
for the opportunity to address the committee on this important 
issue affecting children enrolled in our public schools.
    The National School Boards Association represents the 
Nation's nearly 15,000 local school districts and over 95,000 
local school board members by working with and through our 
State School Boards Associations. At the organizational level, 
NSBA's School Health Programs Department assists school 
policymakers and educators to make informed decisions about 
health issues affecting the academic achievement and healthy 
development of students and the effective operation of schools.
    Services are provided with and through NSBA's member State 
associations and school boards in partnership with other 
national organizations such as the National Association of 
State Boards of Education, the Alliance for a Healthier 
Generation, and Action for Healthy Kids.
    Additionally, NSBA is very proud of its efforts to promote 
nutrition in the schools and to prevent childhood obesity 
through Web-based services, educational programming, and 
publications. A summary of our efforts is provided as an 
appendix to our statement.
    Without question, local school districts believe that child 
nutrition is vitally important to fostering a healthy and 
positive learning environment for children to achieve their 
full potential. Healthy students learn better. Children and 
youth who eat nutritious foods and stay active are healthier, 
perform better in school, and learn behaviors that will keep 
them healthier throughout their lifetimes.
    School boards are acutely aware of the importance of 
ensuring that children have access to healthy and nutritious 
food, and many have already taken steps at the local and State 
level to improve nutrition and healthy eating. One such example 
is the State of Delaware, where a public/private partnership of 
education and health stakeholders, including the Delaware 
School Boards Association, established the Edith P. Vincent 
Healthy School Awards to recognize the work of public schools 
championing children's health, including nutrition.
    NSBA's Health Programs Department maintains many examples 
of school district efforts to improve student health and 
nutrition on its promising district practices database. Healthy 
nutrition success stories include a district in Kentucky that 
increased breakfast participation rates to 95 percent; a 
district in New Jersey that holds monthly coordinated health 
team meetings to discuss increasing use of fruits and 
vegetables, coordinating with food services and meeting with 
the PTA. There is a Pennsylvania district that created its own 
wellness brand to establish a new culture in the district to 
promote health. And there is an Arkansas district that 
implemented a water-only policy for sale in the district's 
vending machines.
    There are many other examples of local initiatives because 
the commitment to increasing student access to healthy and 
nutritious food is not unique. What is unique, however, are the 
circumstances of each school district. What is successful at 
one won't necessarily work at another. The geography, economy, 
demographics and resources available in the community vary for 
each district. The challenges, opportunities, and responses to 
local circumstances will also vary.
    Local decision-makers and stakeholders are in the best 
position to understand and meet the needs of each district, 
including child nutrition, with the Federal Government playing 
an important supportive role. Therefore, I have the following 
recommendations for strengthening nutrition programs in the 
child nutrition reauthorization.
    Recognize local school district authority and the variance 
among local circumstances and laws or policy addressing child 
nutrition.
    Next, refrain from imposing additional regulations or 
mandates on schools outside of the federally subsidized School 
Lunch and Breakfast Programs, and adequately reimburse schools 
for the cost of these services.
    In addition, support school districts, local communities 
and States that are assuming greater responsibility for health 
and nutrition through incentives and grants that enable them to 
further expand their local commitment.
    And finally, ensure that adequate resources are available 
for school nutrition programs, for the meals and 
administration, the equipment and facility improvements, 
training for staff education and other stakeholders, for 
nutrition education and support of local initiatives.
    These recommendations are based on NSBA's resolutions, 
which are determined by a national 150-member delegate 
assembly, members of which are selected by their States to 
collectively establish policy representing the perspective of 
95,000 local school board members. The process is annual and 
ongoing, and the policy development begins in local communities 
in the States and culminates at NSBA's annual convention each 
spring.
    In conclusion, reauthorization of the Child Nutrition Act 
is an opportunity to celebrate the progress made since the 2004 
reauthorization and to envision an even healthier future for 
our children. Improving the quality of and expanding access to 
school meals is important to our children and our Nation. 
School districts are vital partners in the effort to assure a 
healthy and positive learning environment for children to 
achieve their full potential. The Child Nutrition Act 
reauthorization is an opportunity to acknowledge and support 
this local leadership and authority.
    Thank you again for the opportunity to comment. NSBA looks 
forward to a continuing conversation and collaboration about 
this critical issue. Thank you.
    Chairman Miller. Thank you.
    [The statement of Ms. Gettman follows:]

   Prepared Statement of Lucy Gettman, Director of Federal Programs, 
                   National School Boards Association

    Mr. Chairman: My name is Lucy Gettman, director of federal programs 
for the National School Boards Association (NSBA). As a former child 
nutrition advocate and now an advocate for NSBA, I thank you for the 
opportunity to address the Committee on this important issue affecting 
children enrolled in our public schools. The National School Boards 
Association represents the nation's nearly 15,000 local school 
districts and over 95,000 local school board members by working with 
and through our state school boards associations.
    At the organizational level, NSBA's School Health Programs 
department assists school policymakers and educators to make informed 
decisions about health issues affecting the academic achievement and 
healthy development of students and the effective operation of schools. 
Services are provided with and through NSBA's member state associations 
of school boards, in partnership with other national organizations, 
such as the National Association of State Boards of Education, Alliance 
for a Healthier Generation, and Action for Healthy Kids.
    Additionally, NSBA is very proud of its efforts to promote 
nutrition in the schools and to prevent childhood obesity through web-
based services, educational programming, and publications. A summary of 
our efforts is provided as an appendix to our statement.
    Without question, local school districts believe that child 
nutrition is vitally important to fostering a healthy and positive 
learning environment for children to achieve their full potential. 
Healthy students learn better. Children and youth who eat nutritious 
foods and are active stay healthier, perform better in school and learn 
behaviors that will keep them healthier throughout their lifetimes.
    School boards are acutely aware of the importance of ensuring that 
children have access to healthy and nutritious food and many have 
already taken steps at the local and state level to improve nutrition 
and healthy eating. One such example is the state of Delaware, where a 
public/private partnership of education and health stakeholders 
including the Delaware School Boards Association established the Edith 
P. Vincent Healthy School Awards to recognize the work of public 
schools championing children's health, including nutrition.
    NSBA's School Health Programs maintains many examples of school 
district efforts to improve student health and nutrition on its 
Promising District Practices database. Healthy nutrition success 
stories include:
    <bullet> A district in Kentucky that increased breakfast 
participation rates to 95 percent.
    <bullet> A district in New Jersey that holds monthly coordinated 
health team meetings to discuss increasing use of fruits and 
vegetables, coordinate with food services, and meet with the PTA.
    <bullet> A Pennsylvania district that created its own ``wellness 
brand'' to establish a new culture in the district to promote health.
    <bullet> An Arkansas district that implemented a water-only policy 
for sale in the district's vending machines.
    There are many other examples of local initiatives, because the 
commitment to increasing student access to healthy and nutritious food 
is not unique. What is unique; however, are the circumstances of each 
school district. What is successful at one won't necessarily work at 
another district. The geography, economy, demographics, and resources 
available in the community vary for each district. The challenges, 
opportunities and responses to local circumstances will also vary. 
Local decision makers and stakeholders are in the best position to 
understand and meet the needs of each district, including child 
nutrition, with the federal government playing an important supportive 
role.
    Therefore, I have the following recommendations for strengthening 
nutrition programs in the child nutrition reauthorization:
    <bullet> Recognize local school district authority and the variance 
among local circumstances in laws or policy addressing childhood 
nutrition.
    <bullet> Refrain from imposing additional regulations or mandates 
on schools outside of the federally subsidized school lunch and 
breakfast programs and adequately reimburse school districts for the 
cost of those services.
    <bullet> Support school districts, local communities and states 
that are assuming greater responsibility for health and nutrition 
through incentives and grants that enable them to further expand their 
local commitment.
    <bullet> Ensure that adequate resources are available for school 
nutrition programs, for meals and administration, equipment and 
facility improvements, training for staff, educators and other 
stakeholders, nutrition education and support for local initiatives.
    These recommendations are based on NSBA's Resolutions, which are 
determined by a national 150-member Delegate Assembly, members of which 
are selected by their states to collectively establish policy 
representing perspectives of 95,000 local school board members. The 
process is annual and on-going in that the process of policy 
development begins in the states and culminates at NSBA's annual 
convention each spring.
    Conclusion: Reauthorization of the Child Nutrition Act is an 
opportunity to celebrate the progress made since the 2004 
reauthorization and to envision an even healthier future for our 
children. Improving the quality of and expanding access to school meals 
is important to our children and our nation. School districts are vital 
partners in the effort to assure a healthy and positive learning 
environment for children to achieve their full potential. The Child 
Nutrition Act reauthorization is an opportunity to acknowledge and 
support this local leadership and authority.
    Thank you again for the opportunity to comment. NSBA looks forward 
to a continuing conversation about this critical issue.
                                appendix

                   Efforts to Improve Child Nutrition
                               March 2010

    The National School Boards Association (NSBA), through its School 
Health Programs department, supports NSBA's commitment to help school 
policymakers and educators make informed decisions about health issues 
affecting the academic achievement and healthy development of students 
and the effective operation of schools. Services are provided with and 
through NSBA's member state associations of school boards, and in 
partnership with other national organizations such as the National 
Association of State Boards of Education, Alliance for a Healthier 
Generation, and Action for Healthy Kids. NSBA receives funding from the 
Centers for Disease Control and Prevention (CDC) to support much of its 
work on health issues.
    Web-based services through NSBA's School Health Programs webpage 
(www.nsba.org/SchoolHealth)
    <bullet> ``101'' Packets on school health topics such as Wellness, 
Childhood Obesity, Nutrition, and Physical Activity provide the data, 
background information, research and sample policies to support local 
school board decision making. ``Promising District Practices'' website 
provides the ``stories'' of how school districts have acted to address 
healthy eating and physical activity.
    <bullet> A Childhood Obesity web page launched in January 2010 
provides easy access to data, research, and tools for making policy and 
environmental change.
    <bullet> ``Updates and Special Announcements'' alert school 
officials to new research and reports on a wide range of health topics, 
including nutrition, to inform decision making. Users can sign up to 
obtain the ``Updates'' via an RSS feed.
    <bullet> Searchable database of research, information and sample 
policies provides essential information on a wide variety of school 
health topics including nutrition.
Educational Programming
    <bullet> NSBA's annual conference (April 4-7, 2009, San Diego, CA): 
several sessions focused on school nutrition and wellness were 
presented in partnership with such organizations as the Alliance for a 
Healthier Generation, Action for Healthy Kids, and the School Nutrition 
Association. The 2010 conference (April 10-12) in Chicago also will 
have multiple sessions on school nutrition and related health issues, 
including a session provided by the California School Boards 
Association on collaborative leadership for addressing health issues.
    <bullet> Symposium on Childhood Obesity (July 2008, Little Rock, 
AR): 12 state teams that included members of state boards of education 
and local school board members convened to develop action plans to 
drive childhood obesity initiatives/policy change in their states. 
Follow-up technical assistance was provided to these state teams.
    <bullet> Webcast: On December 1, 2009, in partnership with the 
Missouri School Boards Association's Education Solutions Global Network 
(www.esgn.tv), NSBA hosted a webcast on strategies for addressing 
childhood obesity, which targeted school board members and other state 
and local elected and appointed policymakers.
Publications
    <bullet> Content in the American School Board Journal, including a 
special report focusing on ``Health and Leadership'' in addressing 
childhood obesity (February 2009--access online at www.asbj.com).
    <bullet> Participation in the development of Leadership for Healthy 
Communities Action Strategies Toolkit, a new toolkit for state and 
local policymakers to develop policy measures addressing issues around 
childhood obesity, including nutrition in schools (in partnership with 
Leadership for Healthy Communities, a national program of the Robert 
Wood Johnson Foundation).
                                 ______
                                 
    Chairman Miller. Thank you very much to all of you for your 
testimony.
    Ms. Morrison, can you just--I only have 5 minutes, so I 
need a better explanation--not better, but a more expansive 
explanation than you have in your paper of what happened. Why 
did these agencies in Los Angeles decide they could no longer 
participate?
    Ms. Morrison. The program was being sponsored by an 
organization, a multiservice organization, and the CACFP 
administrative compensation for the program did not--it was not 
financially viable for the organization to continue supporting 
that program. There is not enough money for the administrative 
reimbursement to support the program and to be able to 
accomplish the requirements.
    Chairman Miller. And that is separate from the food 
package.
    Ms. Morrison. That is separate from the food, meals, yes.
    Chairman Miller. So your understanding is that it is a 
question of the cost of administration.
    Ms. Morrison. That is true. It is the cost of 
administration of the program that is causing sponsors to 
discontinue sponsoring the program.
    Chairman Miller. And you would attribute that to what? I 
mean why has that changed all of a sudden?
    Ms. Morrison. Well, one of the things that happened in the 
last year is the reimbursement for administration was reduced 
because of the tie to the Consumer Price Index, which went 
down. That caused the reimbursement rate for certain level of 
homes to go down. Also, the administrative burdens of 
paperwork, and the additional block claiming that has become a 
requirement, caused programs to close because it requires more 
visits and it can't be accomplished without increasing the 
reimbursement for the administration.
    Chairman Miller. All right. Thank you for that.
    Ms. Rivas, you make two recommendations with respect to the 
dietary guidelines. And one is that it is no longer sufficient 
to simply try to meet the goals--that it is sufficient that you 
are attempting to meet the goals of the dietary guidelines. You 
think that dietary guidelines in and of themselves have to be 
met. Is that a fair statement?
    Ms. Rivas. Well, currently, we have national guidelines 
that follow the dietary goals. Recently, USDA contracted with 
the Institute of Medicine to further look into the dietary 
guidelines in order to look at the overall problem of reducing 
childhood obesity.
    And so, currently, what we want to be able to do is 
increase our reimbursement so that we can go ahead and meet 
those guidelines. But we need the Secretary of Agriculture to 
be given the authority to be able to define those guidelines so 
we can consistently apply the same specific guidelines.
    Chairman Miller. You need him to define how they apply to 
the school nutrition programs.
    Ms. Rivas. Pardon?
    Chairman Miller. You need the Secretary to have the 
authority on how they apply to the school nutrition program and 
how there would be compliance.
    Ms. Rivas. How the guidelines for the Institute of 
Medicine's new recommendations are going to be applied 
consistently throughout the country.
    Chairman Miller. And you have landed that on the Secretary 
of--and you think that is the place.
    Ms. Rivas. Well, we currently have meal patterns. But we 
have new recommendations from the Institute of Medicine that 
have been offered through the Institute of Medicine, and we are 
needing some additional guidance to be able to implement those 
guidelines nationally so that they are consistent. Currently, 
many States and local districts are making changes to their 
local standards, and that increases costs because there are 
different versions that are being applied nationally. Being 
able to apply them consistently and have the Secretary of 
Agriculture define what those guidelines are will make our 
programs more consistent and reduce the overall cost of our 
programs.
    Chairman Miller. Thank you. I am delighted when I read in 
your testimony that, you know, you have joined up with First 
Lady Michelle Obama in this campaign for healthy eating and 
healthy meals, and trying to use, as she explained it to us, 
trying to use these programs as teachable moments, as part of 
the classroom, as she would say; whether it is the school 
garden or the Lunch or Breakfast Program, to do this.
    And I was discussing diabetes with some people yesterday, 
and when you think that 23 million children and adults in the 
United States have diabetes--the number of children under the 
age of 20, it is 186,000 individuals. And so it would seem to 
me that as we talk about obesity and diabetes and diet, that 
there is a moment here to really do an education; that if you 
are going to have this explosion of diabetes in the adult 
population, some kind of work with the children while you have 
these moments around the school nutrition programs could 
conceivably, if well structured and properly delivered, could 
conceivably have a lifetime of benefits for those individuals. 
And I don't know how you are thinking about this but----
    Ms. Rivas. Absolutely. We see--the School Nutrition 
Association sees this as a wonderful opportunity to utilize the 
school cafeterias as a learning laboratory for healthy eating 
so that we can improve the eating habits of our children. We 
support coordinated school health programs so that we can work 
together with the total school community to be able to promote 
the School Lunch Program. We have healthy meals that provide 
healthy entrees, more fresh fruits and vegetables, more whole 
grains, and they model what the healthy meal is. And if our 
students participate in their program they are able to take 
that message home.
    And so in partnership with the total school community, I 
think that we can work toward having healthier students and 
then reducing all of the chronic illnesses that result from 
unhealthy eating.
    Chairman Miller. Thank you. Mr. Kline.
    Mr. Kline. Thank you Mr. Chairman. And again, thanks to the 
witnesses for your testimony, for being here today.
    I was struck that it seems every one of you, you do have 
something in common out there, that every program does seem to 
need more money. We have heard calls for adequate resources, 
enhanced meal reimbursements, covering the cost of 
transportation and delivery and so forth. So I do--we have got 
that message.
    We don't actually have the money, but we do have the 
message that there is more money required. We have some 
difference of opinion, it seems to me, here about the role of 
the Federal Government, how much it is going to be, how much it 
is going to be dictated by the Secretary of Agriculture.
    I think, Ms. Rivas, it was your position there ought to be 
greater input at that level. And I think, Ms. Gettman, you were 
emphasizing, representing the National School Boards 
Association, that there ought to be more local control and that 
the Federal Government ought to be careful about how it 
intrudes in that.
    It does seem to me that the child nutrition initiatives at 
the school or school district, local level, allow for more 
input and support from parents, which I think we all would 
agree is very helpful. The more parents are involved in 
education in general, the better we are. And not just on 
nutrition.
    Could you address that, involving parents and how that 
would relate to how much the Federal Government dictates in 
this process? Ms. Gettman, to you.
    Ms. Gettman. Thank you. Mr. Chairman, members of the 
committee, parents absolutely play an absolutely critical role 
in the success of all of our collective efforts. And to 
maximize and capture the collaborative potential between local 
school districts, families, and communities is absolutely 
paramount. One thing to keep in mind is that local school board 
members are either appointed by or elected by and from their 
communities. Many of them are parents. Many of them are 
educators or providers or business leaders in the community. 
And they are the perfect leverage point to optimize the 
collaborative potential with communities.
    Another dimension that we reflect on with regard to the 
role of parents is that the teachable moments that were brought 
up earlier in this hearing can be maximized at the local school 
district level, either through professional development with 
in-school staff or through PTA, basically the role of local 
school districts as hubs of their communities. Local school 
district initiatives can absolutely magnify parent education, 
parent engagement, parent involvement, ultimately resulting in 
improved child nutrition.
    Mr. Kline. Thank you. I know that one thing about the local 
school board is that you can reach out and touch it. I think my 
daughter has been involved in such a battle here lately, as a 
mother of two children in the public schools.
    I just want a clarification here. I am trying to think, Ms. 
Rivas, whether it was you or not, but I am going to turn to you 
because I think it falls into the realm that you were 
discussing. I want to talk just for a second or have you 
address the issue of the so-called competitive foods, you know, 
where you have--so often you have the athletic organizations of 
the school and organizations who have bake sales and they cook 
the famous brownies and banana bread and that sort of thing.
    Is it your position, or the position of your organization, 
that this should fall into these same guidelines that the 
Secretary would promulgate?
    Ms. Rivas. That is correct. We support local policy and 
menu planning, but with sound science. However, you know, our 
role as food service directors is to teach children, you know, 
good basic nutrition. As they go through the cafeteria line, we 
try to teach them what a good balanced meal is. And I think 
when we are talking about, you know, meals served outside of 
the classroom, very often they do not support that same 
message.
    And so we are urging Congress to eliminate the time-and-
place rule, because what messages we are trying to send in the 
cafeteria in promoting the recommended dietary guidelines and 
the Institute of Medicine recommendations, they need to be 
consistent messages throughout the whole campus.
    Mr. Kline. Okay. So you----
    Ms. Rivas. And so we----
    Mr. Kline. You do want to regulate the bake sale.
    Ms. Rivas. We want to have the Secretary to determine what 
those guidelines should be so that we are consistent, both in 
the cafeteria and outside of the cafeteria, because what we are 
trying to do is have the students participate in the program. 
And when students are tempted to go outside of the cafeteria, 
they are not drinking their milk, which is a very, you know--
which is a real critical part of their growth and development. 
We want to encourage healthy eating.
    Mr. Kline. My time has long since expired, so thank you. I 
think I have got the answer. We want to regulate the bake sale, 
and that is what I was trying to get at. And I do believe I 
understand your position now so I will yield back. I know there 
are others who have questions.
    Chairman Miller. Thank you. Congresswoman McCarthy.
    Mrs. McCarthy. Thank you. And I want to thank Chairman 
Miller for having this hearing today. This is something that 
the committee and the subcommittee have been working on for 
several years now. And I want to thank the panel, for bringing 
the information to a wider audience. I think that, you know, 
when we start looking at--and obviously with Mrs. Obama 
speaking about this constantly, it has finally moved up the 
radar, which a lot of you have already known for a long time 
that we need to change these things. We have worked here in a 
pretty hard way on issues that we are ready for ourselves, for 
the child nutrition reauthorization. The benefits of 
breastfeeding are well-recognized, as we discussed today.
    And just thinking back, I spent over 30 years as a nurse 
and a lot of times I had to work on the OB-GYN floor. And it is 
there that we need to make sure that our nurses and our doctors 
are trained in this, giving the benefits of what the child 
could go through by breastfeeding.
    That is why last year I worked hard to get the $5 million 
in the Ag appropriations for breastfeeding performance bonuses 
awards, and why I introduced legislation addressing this issue. 
Aside from the bonuses, I am also looking at how we can utilize 
volunteers such as those in the National Service AmeriCorps 
Programs to assist with meeting the goals of child nutrition 
programs, especially for WIC.
    I guess the question that I would ask is what are the 
greatest hurdles that we are facing on breastfeeding success 
with the WIC mothers? And beyond peer counseling funding, what 
additional resources would support WIC in its efforts to 
promote breastfeeding? Would additional human resources, 
possibly through volunteers, be helpful in the cause that you 
are looking at? Ms. Saluja.
    Ms. Saluja. Thank you for your question. It kind of puts it 
back to where--I mean, I hate for you all to think I am going 
to keep digging up that old tree or barking up the old tree. 
But the reality is we can put a lot of effort into promoting 
breastfeeding. We can put a lot of human resources into 
supporting it. But until we fix the institutions that don't 
make it happen right, it is just going to be more--throwing 
more money at the problem and hoping it goes away.
    So the way I really, I want to really acknowledge that the 
peer counseling money is phenomenal because that is really what 
helps. You know, the peer-to-peer support, friends working with 
friends, people who look like you, understand your situation. 
Moms, when they go to deliver, though, when they--you know, the 
human-made issue that happens when they get confused by the 
messaging, when they don't have--when the baby is crying and 
doesn't take their breast, that becomes very difficult for 
them.
    So perhaps there is a place for some help that happens, but 
at a community task force collaborative level where we could 
really bring a million people marching the streets saying, 
Hospitals, you need to change. Everybody needs to sing the same 
tune.
    You know, the other programs that our moms access, for 
example, the SNAP program where they go to apply for food 
stamps or the Child Care Food Program where they might be 
leaving their children, all these programs need to be in sync 
that we have the same message: We are here to support exclusive 
breastfeeding and long-term breastfeeding as a vehicle to 
prevent childhood obesity--and all the other fabulous things 
that come along with it.
    Volunteers, there is definitely a place for volunteers. I 
would leave it to local programs to figure out how best they 
can use them. We can never have enough human resources, but 
what we really need is systems change. Perhaps these could be 
the detail people. You know, we know that formula companies 
have detail people. They change the name of a formula, they get 
to the doctor's office and boom, there is a new thing on the 
horizon. We don't have breastfeeding detail people. Maybe the 
volunteers could become the breastfeeding detail that go out 
and do these, you know, luncheons with docs.
    I think there is a way to do this. We have to kind of think 
through this; locally and collaboratively working together. But 
we have got to get rid of the problems that have been created 
by the external environment, so that our moms and babies don't 
suffer needlessly. And WIC doesn't have to, you know, do 
conniption fits to make this happen.
    Mrs. McCarthy. One of the things--and quickly, because my 
time is almost up. We have a couple of programs working in my 
district in the underserved schools where we have brought child 
nutrition back in with an exercise program, working together. 
One of the things that I didn't hear anybody talk about was the 
data that we have so far for 3 years that this program is in 
place, is that the marks all went up. The children actually 
started getting higher grades across the board. And I think 
that we are overlooking that on nutrition. Exercise, actually 
increases marks for the children. And let's face it, our young 
women and boys, at that age, they need to move around a little 
bit more. And we have constrained them in so many ways. So I am 
not saying, you know, a free-for-all. I don't believe in that. 
But I know 2 or 3 minutes of exercise in between classes or 
whatever, or subjects, has helped them quite a bit.
    Thank you for your testimony.
    Chairman Miller. Thank you. Mr. Roe.
    Mr. Roe. Thank you Mr. Chairman. I want to, since this is 
an Education and Labor meeting I want to give you all an A. 
Since I have been here, you are the best panel we have had at 
staying within 5 minutes. Mr. Chairman, thank you for selecting 
these excellent witnesses today.
    And I want to start at birth, because that is what I did 
for a living was birth babies. And one of the things that, I 
totally agree with you, I think several things I ran across. We 
worked in a birthing center. And one of the issues you run 
across for the mother is work, going back to work and 
breastfeeding. I think that is a huge issue, basically your 
education level and cultural issues. But we really emphasized 
that in our practice, and we delivered about 1,200 babies a 
year. And so we emphasized that and had a very high percent 
that breastfed. The problem with it is that many moms work now, 
and it is difficult in the workplace, unless it is an unusual 
work environment, for them to be able to do it. So I pitch that 
out with no solutions, just a point that I think that is a 
problem.
    But, absolutely, what you say is true. And also how we grow 
up. And I think it is extremely important to start in the 
schools. And we, as Congresswoman Slaughter did, we started a 
program in our city in Johnson City, Tennessee, called Up and 
At 'Em, and we weighed all the children in elementary school 
and found that 39 percent were overweight or at risk, and 1 
percent were underweight. And we began a program called Up and 
At 'Em where we introduced exercise as you were talking about, 
in the elementary school level. And hopefully that will be a 
lifestyle; because growing up, my mother didn't allow me to 
stay in the house. I mean you had to be outside playing. You 
had to go out. And we only ate when we ate. There weren't any 
restaurants. And I was in a very rural county, so there were no 
fast food restaurants where I lived. So we ate vegetables and 
fruits, and that is how we grew up, and that is how I continue 
to eat today. So we are what we eat. And I think that is a 
situation where that is got to begin at birth.
    One of the problems I have with the program, I guess, is 
that when you are--it is $2.68 we pay for a meal and it costs 
the schools $3.03, or approximately that, in our area to 
produce a meal. So they are in the hole already.
    I think you brought that point up, Ms. Rivas, and I 
certainly am sensitive to that. You can't continue to do that.
    The other thing, where school cafeterias have, I guess, 
expense back to the lunch program, where you are paying for a 
lot of things that don't have anything to do with food.
    The other thing, I would recommend that you look at what we 
did in our local community, which was very helpful in saving 
money, was we did an energy audit for all our buildings. And we 
found out that one of the biggest energy consumers that we had 
were the old ovens and stuff that you prepared the food with, 
and we were able to go in with a company that actually found 
enough energy savings to replace all of that more modern 
equipment at no cost. So I would look at those opportunities 
out there.
    The other thing I think, Ms. Morrison, you brought up that 
was interesting, I would like to hear your comment. We did this 
on the VA Committee where we budget now for 2 years, is to 
budget--can purchase over a 2-year period of time. That makes 
good sense if you can use best practices like that.
    And any comments that any of you have about what I have 
said. Ms. Morrison, you are--yes, Ms. Saluja.
    Ms. Saluja. If I could begin at the birth piece, I really 
appreciated your comments. I congratulate you on your practice. 
The thing that you mentioned, though, it is a very common 
misconception that people hold, that well, yeah, you want to 
breastfeed but you are going back to work. The reality is that 
there again, working women, women of color, lower-income moms, 
are disproportionately affected by that, and it is seen as a 
hindrance. It really isn't.
    And again, WIC comes into play there. We have money for 
breast pumps. The WIC program--I will speak personally. From my 
experience for the last 10 years, we have been putting pumps 
out in work sites. We have actually legislation in 36 States, I 
believe--it is in my testimony, I may have the number wrong--
that actually provide lactation accommodation at the work site.
    And in Los Angeles, I am so proud to tell you we have never 
had an employer turn us down. We are the advocates. The mother 
comes to us and says, WIC, I am ready to go back to work. There 
are certain conditions. She is exclusively breastfeeding. She 
is going back to work. We call the employer, we tell them about 
the California law. They welcome them with open arms. We have a 
place, we give the pump for free. They give it back to us when 
they are done. And in fact I want to tell you that this working 
woman pump program in Los Angeles, we have actually done a 
study on it, it gives us 120 extra days of exclusive 
breastfeeding, just because the mother had the support and the 
location was provided for her at the work site. Having said 
that, I would really urge that we look to see that USDA allows 
us to use contingency funds if needed to buy additional pumps, 
because that is going to be our next challenge, as you so well 
pointed out.
    And I also want to recognize that Representatives Caroline 
Maloney and Carolyn McCarthy have introduced legislation to 
provide tax credits for workplaces offering lactation 
facilities. We do need to make this a recommendation that 
breastfeeding and working are not incompatible but should be 
encouraged, because, as I just told you all, and I am sure you 
knew, it is the duration of exclusive breastfeeding that is 
going to help us put the first line of defense against 
childhood obesity. Thank you.
    Chairman Miller. Did you also ask for Ms. Morrison to 
respond? If there is no objection, just let her.
    Ms. Morrison. Do you want me to go ahead and answer the 
question? Okay. Thank you for the question. What we are 
proposing is that we are allowed to have--well, Business 101, 
you don't plan a budget without having contingency funds or to 
try to have carryover. And with the Child Adult Care Food 
Program regulations we aren't allowed to have carryover. It is 
very difficult. Is that enough of an answer for you?
    Mr. Roe. Thank you, Mr. Chairman.
    Chairman Miller. Thank you. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. Have any of the 
panelists, are any of the panelists aware of any successful 
Farm to School Programs, where you work with local farmers to 
sell food to the local school system?
    Ms. Rivas. I know that across the country we have a number 
of successful Farm to School Programs, and we work through the 
United States Department of Agriculture through the Commodity 
Program to direct Farm to Schools to our school district in 
Dallas.
    But there are a number of them across the country.
    Mr. Scott. And are they helpful? Should they be encouraged?
    Ms. Rivas. Absolutely. We are able to get a greater variety 
of fruits and vegetables that students have not been exposed 
to, and so it is a very successful program, and we would be 
glad to provide you with a list of some successful programs.
    Mr. Scott. Thank you.
    Mr. Holt. Would the gentleman yield?
    Mr. Scott. Yes.
    Mr. Holt. Representing the Garden State, I would just like 
to bring to the gentleman's attention H.R. 4710, introduced by 
myself, Mr. Sestak, Mr. Boyd, Mr. Blumenauer, Mr. Ellison, and 
Mr. Davis, to amend the School Lunch Program for Improving Farm 
to School Programs.
    Mr. Scott. Good.
    Chairman Miller. And I think Mr. Scott wants to be on that 
bill.
    Mr. Holt. That was my question.
    Mr. Scott. I think so. I think so. I thought I was already 
on it, as a matter of fact.
    Ms. Rivas, is it any more expensive to provide healthy 
meals than unhealthy meals?
    Ms. Rivas. Yes. We currently provide healthy meals, and so 
I kind of want to start with that. Because we currently meet 
the dietary guidelines and provide no more than----
    Mr. Scott. It is more expensive to provide----
    Ms. Rivas. It is significantly more to offer more whole 
grains and more fresh fruits and vegetables.
    Mr. Scott. One of the curiosities about this program, as I 
understand it, is the reimbursement rate is the same all over 
the country. Low-cost areas and high-cost areas, where the cost 
of food and personnel may be vastly different, the 
reimbursement rate for the school meals is exactly the same. Is 
that right?
    Ms. Rivas. That is correct.
    Mr. Scott. Does that make sense?
    Ms. Rivas. Does that make sense?
    We all have different challenges, and school food service 
directors struggle with that. We all do have varying labor 
costs, food costs, and fuel costs, but I think the overall 
problem is that it is currently totally underfunded. So all of 
us are struggling with a tight budget and need increased 
reimbursement, and we are urging Congress for 35 cents more 
across the board both for breakfast and for lunch. We are 
wanting to meet the Institute of Medicine's new recommendations 
of offering more fresh fruits and vegetables, and in order to 
do that, we need higher reimbursement.
    Mr. Scott. How much of your budget, Ms. Rivas, is used up 
in administration and trying to find out who is eligible and 
who is not eligible? It seems to me in many schools where 
virtually everybody is already eligible, it makes no sense to 
waste money. You could serve everybody for the cost of fooling 
with the eligibility standards.
    Ms. Rivas. And that is one of our recommendations. You do 
reach a certain threshold where at a certain point when you 
have certain districts that have certain levels of free and 
reduced lunch participation it is more cost effective to be 
able to eliminate the process of applications.
    Mr. Scott. In Virginia, we have a tough budget situation, 
and there is consideration being given to dispensing with 
school breakfast. Can someone say how important the School 
Breakfast Program is?
    Ms. Rivas. I can certainly do that. I have been involved in 
a number of districts where we have had programs that we have 
expanded breakfast through grab and go breakfast, breakfast in 
the classroom, and our teachers are our best advocates for it 
because what they see is that their students are more attentive 
in the classroom, there are less students going to the nurse's 
office because they are hungry, and there is research to show 
that especially when it comes to analytical skills and math and 
science they are able to mentally be able to accept all those 
concepts a lot easier when they have had breakfast.
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Ms. Fudge.
    Ms. Fudge. I thank you, Mr. Chairman, and thank all of you 
for your testimony today.
    Ms. Rivas, the U.S. health care costs due to obesity is 
estimated to be about $150 billion a year, half of which is 
paid through Medicaid and Medicare. With nearly $1 of every $6 
of our economy spent on health care, we cannot afford to 
continue to sell junk food in schools. Too many children in my 
district which I represent, one of the poorest districts in the 
country, depend on food served in schools, most of them. Now I 
am talking about Cleveland, Ohio, which is a part of my 
district. And I am certainly not willing to gamble with their 
heath. Getting unhealthy food out of schools is a no-cost way 
to address the high cost of obesity.
    My question is, from the perspective of the School 
Nutrition Association, do you think that a minimum nutrition 
standard for food sold outside of school meals Nationwide is 
needed to protect the integrity of the School Lunch Program and 
the health of all of our children in all States?
    Ms. Rivas. Absolutely. The School Nutrition Association 
totally urges Congress to eliminate the time and place rule. 
Because we absolutely believe that the health of our student--
that we are investing in the future of our country when we have 
well-nourished, healthy students; and being able to teach that 
same message of healthy meals both inside and outside of the 
cafeteria is critical to them developing healthy eating habits 
in the future and eliminating chronic illnesses as well.
    Ms. Fudge. So there should be a minimum standard?
    Ms. Rivas. Absolutely. We are recommending that the 
standards be set by the Secretary of Agriculture following the 
recommended dietary allowances or guidelines for Americans.
    Ms. Fudge. Thank you.
    Ms. Morrison, in your testimony, you recommend that 
Congress reduce the Child and Adult Care Food Program area 
eligibility test from 50 percent to 40 percent to streamline 
access to healthy meals. While this reduction will have a 
positive affect on all rural and suburban communities, will it 
also have a positive effect on urban areas? And, if so, how?
    Ms. Morrison. Certainly. The percentage of low-income 
children or families in urban areas is no different than in the 
rural areas. If you have a district that has 50 percent, in 
fact, it is going to impact them more in the urban areas 
because you will have more children concentrated in an urban 
area that would be impacted by reducing that eligibility to 40 
percent than you would in a rural area. So the answer to your 
question is it would have a greater impact in an urban area.
    Ms. Fudge. Ms. Gettman, Nationwide, 30 percent of school 
districts prohibit the sale of unhealthy food in school vending 
machines. Two-thirds of States have weak or no nutrition 
standards for food sold outside of meals. One of your 
recommendations is that Congress refrain from imposing 
additional regulations or mandates on schools outside of the 
Federally subsidized school lunch and breakfast programs. If 
Congress adopts your recommendation and does not work to create 
Nationwide nutrition standards for food outside of meals, how 
will we ensure that our children are only offered the 
healthiest food?
    Ms. Gettman. Thank you.
    A couple responses that come to mind include that schools 
and school districts are moving in the right direction. As the 
information you just shared demonstrates, a fairly significant, 
although certainly not all school districts, are already moving 
in the direction of making that local determination of what is 
appropriate for students to have access to in their schools.
    I think one thing that we haven't talked about too much is 
that, in light of the direction that many school districts and 
States are going to with regard to implementing standards for 
school nutrition, that I am not sure we have asked the question 
whether national standards would necessarily improve over those 
which already exist in some States and schools. I think 
sometimes the flip side of uniformity is maybe we haven't 
reached quite as high as we would like to.
    I think it is also important to honor the fact that long-
term solutions are more effective when they are locally 
initiated and there is local engagement and the innovation is 
coming from the local level. And so that is where I think we 
would recommend some attention and resources being devoted.
    I would also give some thought to any unintended 
consequences to having national standards, and I already 
mentioned, it is possible that national standards could be 
weaker than those that already exist in some States or in some 
school districts.
    And, also, as Mr. Kline brought up, we want to make sure 
that our approach deals with all the environments and climates 
and contacts that children have. So it is not just in school, 
but it is also at home and in the community. So that students 
who do not have access to low-nutrition foods in vending 
machines, for example, aren't just bringing them in or buying 
them elsewhere or eating differently at home than they do in 
school.
    So I think it is important to take as comprehensive an 
approach as possible and to recognize that successful solutions 
to these issues need to have strong engagement from the local 
level.
    Ms. Fudge. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    Mr. Kildee [presiding]. Mr. Polis.
    Mr. Polis. Thank you, Mr. Chairman.
    I couldn't agree more that nutritional education is 
essential for our country to tackle the obesity epidemic.
    My first question is for Ms. Rivas.
    Numerous scientific studies have shown the benefit of low-
fat, high-fiber, plant-based options for adults and children; 
and several organizations have promoted vegetarian or meals 
with a reduced meat as important options for chronic disease 
prevention.
    For example, the American Heart Association, American 
Diabetes Association, the American Institute for Cancer 
Research promote plant-based foods for chronic disease 
prevention; and the American Medical Association and the 
American Public Health Association have called on Federal food 
assistance programs to emphasize vegetables, fruits, legumes, 
grains, and nondairy vegetarian foods.
    Based on the scientific research, it seems that we could be 
making tremendous progress in improving our children's health 
and bringing down health care costs by expanding access to 
healthy vegetarian choices and reducing children's intake of 
fat, saturated fat, and cholesterol.
    Many students also prefer such options for moral, 
religious, allergic, or other reasons. For instance, many 
children are allergic to milk, are lactose intolerant, as I 
happen to be, or choose not to drink milk for other reasons. 
But they miss out on vital nutrients because they don't have 
access to nondairy milk substitutes.
    So my question is two-fold. Should we encourage healthful 
vegetarian menu items in the national school lunch and 
breakfast programs by making them more affordable and providing 
incentives for schools, especially low-income schools to 
provide them; and, secondly, do you believe that schools should 
offer nondairy milk alternatives that meet nutritional stands 
established by USDA for school lunches for kids that can't 
drink milk or won't drink milk?
    Ms. Rivas. Currently, and we can make an operations--the 
School Nutrition Association did an operations report on trends 
in menu planning in the last year, and the majority of school 
districts are currently offering vegetarian options as a choice 
in their menu planning. In many cases, some of the vegetarian 
options, because they are not very popular, are more expensive. 
When we have special diets for our students, some of those 
substitutions are also higher, and so they are more expensive 
and all the more reason why that additional reimbursement is 
very helpful in being able to expand those menu options.
    Mr. Polis. The second part with regard to the milk?
    Ms. Rivas. Currently, we offer a variety of milk, and 
school districts can choose to offer, as well, milk alternate 
substitutions. The cost of a comparable milk substitute is 
probably about four or five times the price of an 8-ounce 
carton of milk. And so, again, it is more expensive to be able 
to do that, but many school districts are absorbing the costs.
    Mr. Polis. What can be done to bring down those prices of, 
let's say, soy milk or almond milk or other milk products.
    Ms. Rivas. I think most students accepting that choice. 
Because when we put the soy milk option on the line, a milk 
carton might cost us 20 cents. A soy alternate is about 75 
cents. And so when we put that on the line, very few students 
take that choice. I am not really sure how to get industry to 
be able to reduce those costs, but, obviously, the more 
students that are exposed to it and learn to accept that, then 
that also lowers that cost. But, it is basically because it is 
not a high-volume item that it is going to cost us more.
    Mr. Polis. Finally, can you share with us your 
recommendation on how we can strengthen nutrition education and 
in particular what role the TEAM Nutrition Network can play to 
promote and support healthy eating and physical activity by 
children?
    Ms. Rivas. A number of years ago, there used to be funds 
that were designated for nutrition education at the rate of 
about 50 cents per student; and those funds were eliminated. 
Certainly more funding for nutrition education would be 
necessary to be able to expand nutrition education. We are also 
working with the coordinated school health programs in the 
school to work on incorporating nutrition education into the 
classroom curriculum.
    Mr. Polis. You mentioned earlier a majority of schools have 
vegetarian options. By majority, did you mean perhaps a slight 
majority, 50, 60, 70 percent, or do you mean the vast majority?
    Ms. Rivas. I think it is closer to the 90 percent. I don't 
know the exact figure, but from what I recall it was between 90 
and 96 percent.
    Mr. Polis. Thank you. Yield back.
    Chairman Miller [presiding]. Ms. Chu. Congresswoman Chu.
    Ms. Chu. Thank you, Mr. Chairman.
    Ms. Rivas, I understand that school districts bear 
significant administrative costs in administering the Federal 
School Lunch Program, and one of those costs has to do with 
what they pay the school district itself for the cost of just 
being there. And I understand that there isn't any 
standardization with regard to what the school district can 
charge. One of my school districts just told me about an 
example where they are charged for the full cost of using the 
multi-purpose room all day long, when, in reality, the children 
only use it half an hour each day. So what can be done about 
this? I know that you talk about eliminating the administrative 
costs entirely, but could there be some standardization that 
can be done across States?
    Ms. Rivas. Well, USDA currently allows some costs to 
producing--or indirect costs that go to producing the meal as 
an allowable cost. But currently there are no specific 
guidelines to be able to determine what those indirect costs 
are. So we urge you to have the Secretary of Agriculture define 
those guidelines more clearly so that nationally we are able to 
have more consistent guidance in what districts are able to 
charge school districts. So to prevent some of the school 
districts for charging, like the example that you used, for the 
multi-purpose room that is only used minimally.
    Ms. Chu. Should it be done by the Secretary? Should it be 
done State by State? I am wondering what the best way to go 
about doing this is.
    Ms. Rivas. The most consistent way is to be able to set 
some general guidelines. But from--this is a national program. 
It is funded nationally. The guidelines for the menu planning 
all come from the Secretary of Agriculture; and they, I think, 
would be the best body to be able to determine what those 
guidelines--because they know what those expectations are for 
producing that meal. They established the guidelines for 
producing that meal. So what would be allowable I think would 
be best determined by the Secretary of Agriculture.
    Ms. Chu. And there are also the administrative costs of 
verification. I know that you talked about one way of 
streamlining would be to have to whole communities qualify for 
free lunch programs, but not all communities would be able to 
qualify in that manner. So what are other ways that there could 
be to streamline the verification?
    Ms. Rivas. I am not familiar with all of the variety of the 
ways that that can be done. But I know that there is a certain 
threshold that a school district begins to achieve that after a 
certain level of percentage of free and reduced or it gets to 
where it is more cost effective to eliminate the whole 
application process. There is a big amount of expense that goes 
to processing applications and verification.
    So there is a threshold, and we just urge you to consider 
that. Because it would be a more cost-effective way for those 
communities to be able to reduce the cost to the students as 
well as to expand participation.
    I had experience with a Provision 2 program where we had 
about 84 percent free and reduced, and when we went to that 
program we were able to eliminate the stigma that students had 
about the program, and we were able to increase breakfast from 
30 percent to 50 percent. We were able to increase middle 
school and high schools over 10 to 15 to 20 percent at varying 
schools. So it is a very good option, especially in those 
communities that have--where the threshold is to where it 
costs, you are putting more money into file cabinets as opposed 
to on the plate of children.
    Ms. Chu. And there are relatively high percentage rates of 
fully subsidized students and fully paying students, but I 
understand there is a shockingly low rate of students that are 
at the subsidized level. In my district, we are saying it is 
only 7 percent versus those who are subsidized being from 60 to 
90 percent. What would be the cost and benefits of allowing 
students at the reduced lunch level to be fully subsidized?
    Ms. Rivas. That is another area that--or recommendation 
priority that the School Nutrition Association has. Sometimes 
there is a very small percent of students at that reduced 
category that are having to pay 40 cents. And, frankly, when 
you get some of those students and you have families of four or 
five children in that household, it gets very unaffordable for 
families. And very often our own cafeteria supervisors, even 
though many of them are struggling with their own personal 
budgets, take money out of their own pockets to be able to make 
sure that the children have a meal.
    So our recommendation is that over time we have that scale 
adjusted to where we begin incorporating the guidelines to 
include the reduced student and expand to where they eventually 
are also fully subsidized like the free students are.
    Ms. Chu. Thank you. I yield back.
    Chairman Miller. Thank you.
    Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman.
    Ms. Rivas, several years ago, Bill Goodling and I put a 
program in for fresh fruits and vegetables being made available 
throughout the day in the classroom, various places. I visited 
one of the programs in my district. It was very, very 
successful, very popular with the teachers and the students. 
Could you comment on that program?
    Ms. Rivas. That is a wonderful program, and I personally 
have that experience with the Dallas School District. We have 
over 20 or 30 programs right now where we receive funding for 
fresh fruits and vegetables. And we have volunteers, they come 
in, they help distribute a variety of fresh fruits and 
vegetables.
    Again, many of these children are not exposed to some of 
these fresh fruits and vegetables. They have never seen a kiwi 
fruit or star fruit or watermelon because they can't afford it 
at home. And so our staff, along with parent volunteers, 
deliver it to the classroom for a midmorning or midafternoon 
snack; and it is a very successful program.
    Mr. Kildee. Well, what I noticed in two or three schools I 
visited, that cuts across the socioeconomic lines.
    Ms. Rivas. Absolutely. It is available to all students, and 
so it is part of a nutrition education program. And part of 
that program requires that you provide nutrition education as 
part of that program.
    Mr. Kildee. I remember I went to a rather wealthy--probably 
the wealthiest school district in my district, and nothing was 
being wasted, very little. You could see very little waste. It 
was an extremely popular program. So we had a study in a 
poverty area and a study in an area that was not--the opposite 
of poverty.
    Let me ask you this question, too. I started the first 
School Breakfast Program when I was a teacher in Flint Central 
High School in Flint for a small number of students. Does the 
School Breakfast Program have any affect upon attendance at the 
school?
    Ms. Rivas. As I was mentioning the benefits of the 
breakfast program, attendance was one that I forgot to mention, 
along with improved attention in the classroom, behavior in the 
classroom, being able to learn certain math and analytical 
skills, attendance, going less often to the nurse's office, all 
of these are great benefits of the breakfast program.
    Mr. Kildee. Especially among the poor. Very often, they 
left home in the morning without any breakfast, so quite 
anxious to get to school to get their breakfast. And generally, 
once they got there, they stayed there, not always, but they 
stayed there. So you do see an affect on----
    Ms. Rivas. I have had some students having been involved 
with the breakfast program where I had breakfast in the 
classroom at one school and the student happened to be rezoned 
to another school where they did not have breakfast in the 
classroom, and he wanted to go back to the other school because 
they had breakfast in the classroom there because they really 
needed that breakfast in the morning.
    Mr. Kildee. Thank you very much. I thank all of you very 
much.
    Chairman Miller. Thank you.
    Mr. Holt.
    Mr. Holt. Thank you, Chairman Miller; and I wanted to 
acknowledge the subcommittee Chair, Carolyn McCarthy, for 
working on the Child Nutrition Program. It is really more 
important now than ever. I am finding in schools in my district 
in these tough economic times the number of children who need 
the lunches and the breakfasts are--the number is greater than 
ever.
    As you may have gathered from my interchange with Mr. 
Scott, I have a real interest in the Farm to School Programs. 
You probably know it is a key priority of Agriculture Secretary 
Vilsack, and First Lady Michelle Obama has planted a garden and 
so forth. And it not only--this program not only provides the 
fresh--fresher food, but it also has an important educational 
component that I think lasts into adulthood.
    So I am pleased that some of us have introduced the Farm to 
School Improvements Act, which provides competitive grant and 
technical assistance for the use of local foods. That improves 
the relationship between schools and the local providers and 
provides mandatory funding each year for the program. So it 
does provide local economic benefit. But I think--and it 
provides an important educational component, as I say.
    Ms. Rivas, as President of the School Nutrition 
Association, I would like to ask you about a couple of things.
    First, starting with the breakfast program. You recommend 
providing commodity foods for breakfast, which can be used if 
you already have them for the lunch program but that are not 
available there. What about Farm to School? Did you see a role 
for that in the breakfast programs?
    Ms. Rivas. We are urging Congress to consider five 
additional cents for commodity and the Farm to School Program, 
and that value would certainly be a wonderful thing to have. 
And you are absolutely right about the vegetable gardens and 
providing the nutrition education aspect to the students' 
knowledge. Because once they see and are exposed to those 
fruits and vegetables and they see it growing in the 
neighborhood garden or their school garden, they are able to 
see that it isn't something that you just pick up at the 
grocery store but they can grow it at home, and they take those 
messages home to their parents.
    But any financial assistance for the breakfast program, the 
Institute of Medicine guidelines have increased the 
requirements in the breakfast category to expand more fresh 
fruits and vegetables as well, and so that funding is very 
critical to meeting those guidelines as well.
    Mr. Holt. Despite being authorized, the existing Federal 
Farm to School Program hasn't been funded. So what would you 
say about making the funding mandatory?
    Ms. Rivas. Absolutely.
    Mr. Holt. That is it. That is a softball question.
    Chairman Miller. I thought it was a trick question.
    Ms. Rivas. Any funding you can make mandatory we will 
graciously accept.
    Mr. Holt. Not a trick question. A key pillar of the First 
Lady's Let's Move! campaign to solve the problem of obesity is 
to serve healthier foods. She is encouraging or actually 
working toward the goal of doubling the number of schools that 
participate in the HealthierUS School Challenge. What does it 
take to become a HealthierUS school? How can we help more 
schools get there? Is doubling a reasonable goal?
    Ms. Rivas. I think it is a reasonable goal, and we at the 
School Nutrition Association have been working closely with 
USDA. They are looking at some of the paperwork criteria to 
make it easier for school districts to be able to apply to it. 
Because when we used to see an application that we had to fill 
out, it made it more complicated. But the benefits of the 
HealthierUS schools is that not only does it have requirements 
in the menu planning, which is very key to the HealthierUS 
schools requirements, but it also has a component for physical 
activity.
    In the First Lady's Let's Move! campaign, one of the 
pillars is school meals, but one of the other pillars is 
physical activity. So the HealthierUS schools is a wonderful 
recognition that school districts can achieve that promotes 
both nutrition and nutrition education, and physical activity.
    So it is a wonderful program, and the School Nutrition 
Association is going to be really encouraging more of our 
members to participate. We are going to be promoting it at our 
meetings and conferences and publications and everywhere we can 
to help school districts.
    Mr. Holt. Thank you, Ms. Rivas.
    And I thank the other witnesses, and I am sorry time 
doesn't allow for discussion with those excellent witnesses 
now, too.
    Thank you.
    Chairman Miller. Thank you.
    Congresswoman Shea-Porter.
    Ms. Shea-Porter. Thank you.
    Thank you all for being here.
    Better nutrition creates better health, greater 
productivity, and lowers health care costs; and, right now, we 
are talking about that quite a bit on the Hill. So the work 
that you do actually makes a big difference in the lives of 
these children and these adults, and I want to thank you for 
that.
    We had a recent report by the Carsey Institute, which is 
out of the University of New Hampshire, which happens to be my 
alma mater. But it had a disturbing note. It said that 55 
percent of income-eligible rural households with children did 
not participate in the National School Lunch Program. Can you 
identify any barriers to that?
    Ms. Rivas. I am not familiar with that community, but I 
know that one of the barriers is that there very often is a 
social stigma related to the application. And so more funding 
to be able to have technology, make applications online and 
easier to access and reduce that stigma that students might 
have regarding making meals available to them would be helpful.
    But I think in a community where there is a high poverty 
area, the community eligible type of program or community 
eligibility would be very helpful. Because, in that case then, 
students wouldn't have to fill out an application; and, that 
would reduce the cost of the application process to the school 
district.
    Ms. Shea-Porter. Clearly, it has to be addressed; and, Mr. 
Chairman, I would ask that we submit a copy of the report for 
the committee.
    Chairman Miller. No objection.
    Ms. Shea-Porter. I didn't think you would mind.
    [The information follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Ms. Shea-Porter. The other thing I wanted to ask is that I 
know that the President's wife is going to put this terrific 
program into place, and I know that she has shown great 
commitment for children and for nutrition and obesity. And the 
issue, obviously, of obesity and then diabetes, et cetera, is 
enormous. And Mrs. Obama has talked about these pillars.
    I can remember--I think it was last year, when we had 
Richard Simmons here and he was talking about the necessity for 
exercise and how children just weren't getting enough exercise, 
and I was remembering when my own kids were in school the 
punishment would be, if a child was hyperactive or needed to 
move around, was they weren't allowed to move around. They had 
to sit in their seat. If they couldn't stay still, they would 
miss recess, and they would have to sit in their seat. So it 
seemed like it was the exact opposite of what we hoped the 
result would be.
    So my question is, while we start to integrate these 
programs and we bring in more people, will you all be part of a 
team if you are in a school and in such a setting, a day care 
setting or wherever, where you will actually be included in 
some of the decisions that are made by principals and teachers 
as part of the education process to say that not only is it 
about food and good food so that children don't have too much 
sugar and too much whatever it is in the food, too many 
carbohydrates, but that we also make sure that the policies in 
the classrooms and on the playground make sense? Because what 
Mr. Simmons was talking about was a very real problem, that the 
kids aren't exercising enough. So will your voices be heard? 
Will you be part of that integrated approach?
    Ms. Rivas. Yes. And I would suggest that you go to the 
schoolnutrition.org Web site. Because in there we have the 
press release where one of our initiatives in partnering with 
the First Lady was to include working to make coordinated 
school health a concept that is one that more of our members 
embrace.
    I think very often what we have found is that, when you 
work in partnership with a total school community, we are more 
successful in improving the total school environment not only 
from the menu planning aspect but to the physical activity as 
well as even the vending programs at the school, because we are 
all supporting each other toward that same effort of reducing 
childhood obesity and improving the health of our students.
    Ms. Shea-Porter. Let me indicate that I have great sympathy 
for a principal that is exasperated enough to say, what other 
tools do we have? But it does seem to be counterproductive for 
what we are trying to do here.
    I would suggest that even school boards and others who are 
involved in budgetary decisions about physical exercise need to 
be part of that. So that it is not just nutrition, it is not 
just one component, but it is looking at the whole child and 
all of the different issues to really, really change the 
direction that we have been heading in.
    Thank you and thank you all for being here.
    Chairman Miller. Thank you all so very much for your 
testimony.
    I would ask--and Mr. Kline may have an additional 
question--but, Ms. Saluja, you made a recommendation I think I 
can follow up on, and that is I was stunned by your description 
of the ``breastfeeding broken'' hospitals. And I will take your 
suggestion to talk to Mr. Waxman and Mr. Rangel about this.
    It is just not acceptable that in the year in which--over a 
year now we have spent discussing how to drive down long-term 
health care costs that the recommendations from the Institute 
of Medicine on breastfeeding would not be incorporated into the 
birth of those children with the mothers in those programs. So 
I appreciate very much that recommendation.
    Thank you all. We look forward to this reauthorization. I 
think you have all made a lot of very good recommendations, 
some of which we have discussed with you previously and some 
which we have yet to follow up on. Be assured they will get the 
full attention of the committee.
    Mr. Kline, do you have anything further than that?
    Mr. Kline. Again, just thank the witnesses.
    Chairman Miller. Thank you so much; and, without objection, 
members will have 14 days to submit additional materials or 
questions for the hearing record.
    Without objection, the hearing is adjourned. Thank you.
    [Questions submitted to Ms. Rivas and their responses 
follow:]

                                   [Via Facsimile],
                                             U.S. Congress,
                                    Washington, DC, March 16, 2010.
Ms. Dora Rivas, MS, RD, SNS, Executive Director,
Food and Child Nutrition Services, Dallas Independent School District, 
        Dallas, TX.
    Dear Ms. Rivas: Thank you for testifying at the Committee on 
Education and Labor's hearing on, ``Improving Children's Health: 
Strengthening Federal Child Nutrition Programs,'' on March 2, 2010.
    Representative Dave Loebsack (D- IA) has asked that you respond in 
writing to the following questions:
    1. You mention a number of ways that the existing child nutrition 
programs could be improved to increase access. Drawing from your 
experience, could you give us a sense of what it would mean for 
students and even school administrators if schools in Dallas that serve 
predominantly low-income children could offer free meals to all their 
students?
    2. You also mention a number of ways that the existing child 
nutrition programs could be improved to increase access and streamline 
administration for schools. In your experience, can you discuss how 
well direct certification has worked and in more detail, expand upon 
what you see as the benefits to expanding the type of income data used 
to directly certify kids?
    Representative Jared Polis (D-CO) has asked that you respond in 
writing to the following questions:
    In your response to my question during the hearing, you mentioned 
that 90%-95% of schools offered a vegetarian option in the school lunch 
menu. However, according to the School Nutrition Association 2009 
Operations Report:
    <bullet> About 64% offered a vegetarian option in at least one 
school in the district.
    <bullet> About 20% offered a vegan option in at least one school 
(9% offered it to elementary students, 12% to middle schools, and 20% 
to high schools).
    <bullet> About 14% of schools offered soy or rice milk in at least 
one school in the district.
    First, I would like to know if you could comment on whether the 
above more accurately reflect the availability of vegetarian options in 
our public schools. Second, I'm interested in the availability of 
healthful (low-fat, high-fiber) plant-based options and not in the 
options such as cheese pizza that might count under the ``vegetarian'' 
definition, but are nevertheless high in fat, saturated fat, and 
cholesterol. Thus, I would like to reframe the following questions and 
would appreciate your response:
    1. Do you think that we should educate students about the benefits 
of low-fat, high-fiber, plant-based (vegan) options?
    2. Should we encourage such options in the National School Lunch 
and Breakfast Programs by making them more affordable and providing 
incentives for schools, especially high-poverty schools, to provide 
them?
    3. Do you believe that schools should offer nondairy milk 
alternatives that meet nutritional standards established by USDA (be 
eligible for reimbursement under the National School Lunch and 
Breakfast Programs) with school lunches for those kids that don't want 
to or can't drink milk?
    Please send an electronic version of your written response to the 
questions to the Committee by close of business on March 25, 2010. If 
you have any questions, please do not hesitate to contact the 
Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
                                            3700 Ross Ave.,
                                        Dallas, TX, April 14, 2010.

Committee on Education and Labor, 2181 Rayburn House Office Building, 
        Washington, DC 20515.
    Thank you for the opportunity to respond to additional questions 
following my appearance at the March 2, 2010 hearing before the 
Committee on Education and Labor--``Improving Children's Health: 
Strengthening Federal Child Nutrition Programs.'' I appreciate the 
opportunity and would be pleased to offer any further clarification on 
these responses, or to respond to any other school nutrition issues the 
Committee members may have.
Questions from Rep. Dave Loebsack (D-IA)
    1. Providing universal free school meals to Dallas schools with a 
high percentage of students from low-income families would dramatically 
increase access to school meals, reduce the stigma of participation in 
the National School Lunch and Breakfast Programs and relieve pressure 
on the school district's Child Nutrition Services Department.
    Due to current economic conditions, an increasing number of 
America's children are going without school meals because their 
families cannot afford the reduced price meal charge of 40 cents per 
child. According to an October 2009 School Nutrition Association 
survey, 45 percent of school nutrition directors reported an 
``increase'' in the number of unpaid student meal charges in the 2008-
2009 school year, with 15 percent noting a ``strong increase.''
    Some families are unaware that they are eligible for reduced price 
meals or are embarrassed that they cannot afford the full price for 
school meals and avoid going through the application process. This 
trend of some students going hungry and not participating in the 
program or not being able to pay for their meals is placing a financial 
burden on school nutrition programs nationwide, reducing their 
resources to make further nutritional enhancements to the meals or even 
meet operational costs.
    If Dallas ISD had the opportunity to eliminate the application 
process, the significant savings in paperwork reduction would result in 
more students having access to healthy schools meals, eliminate social 
stigma and redirect efforts to increasing productivity, and increasing 
focus on improving quality school meals through more staff training on 
food safety, quality meal production and being able to use the 
cafeteria as a learning laboratory for nutrition education.
    Universal school meals would ensure no child in an eligible school 
would miss a school meal, would eliminate unpaid meal charges and would 
lift the substantial burden of processing applications for the free and 
reduced price program.
    2. Eligibility for free meals shares income guidelines with other 
federal assistance programs, such as the Supplemental Nutrition 
Assistance Program (SNAP), the Special Supplemental Nutrition Program 
for Women, Infants and Children (WIC), and other programs offered by 
other federal agencies.
    Multiple applications for programs with similar eligibility 
standards takes time unnecessarily, demands resources, and increases 
the potential for mistakes. Direct certification takes advantage of 
income verification work that has already been done, reduces errors, 
speeds the provision of benefits to eligible children, and helps local 
school food service personnel by reducing paperwork, allowing them to 
focus on serving quality meals. Direct certification may also help 
qualify children for free meals that right now may be unwilling to 
apply because of the perceived stigma of participation in the program 
discussed in response to your prior question.
    There are several examples of direct certification being used 
throughout the country, while schools and states anxiously await the 
opportunity to submit applications for the $22 million in direct 
certification grants included in the FY 2010 Appropriations Act. I 
believe that direct certification has been a positive experience for 
USDA, for the schools using direct certification, and, most 
importantly, for the children receiving the meals.
Questions from Rep. Jared Polis (D-CO)
    Thank you for your inquiry on vegetarian options in school meals. 
When I testified before the committee I did not have a copy of School 
Nutrition Association's 2009 Operations Report on hand, and I apologize 
for misstating the findings on vegetarian options. You are correct that 
the study found that about 64 percent of school districts reported 
offering a vegetarian option. Let me also assure you that this 
percentage is growing.
    In my initial response to you, I believe I was confusing the 
percentage of districts offering the following:
    Fresh fruits/vegetables--98.8%
    Whole grain items--96.3%
    Salad bar/pre-packaged salads--91.1%
    As you know, school meals must meet federal nutrition standards 
limiting fat. No more than 30 percent of the meal's calories can come 
from fat and less than 10 percent from saturated fat. Vegetarian 
options being served in schools must meet these requirements, which is 
why many schools are making their cheese pizza and other entrees with 
low-fat cheeses.
    In response to your specific questions:
    1. School Nutrition Association (SNA) strongly supports efforts to 
promote nutrition education. The Association's 2010 Legislative Issue 
Paper calls on Congress to ``address childhood obesity by establishing 
an effective nutrition education curriculum and increasing the 
consumption of fruits, vegetables and whole grains.'' Nutrition 
education is a critical step in addressing childhood obesity is 
teaching children the basics of healthy eating. The school cafeteria 
should be a classroom in this regard, and school nutrition programs can 
be a partner in developing effective nutrition education curriculum.
    2. School nutrition programs do need financial assistance to offer 
additional servings of fruits, vegetables, whole grains and legumes and 
to meet the Institute of Medicine's recommendations for updating 
national nutrition standards for school meals. In fact, SNA called on 
Congress to increase the per meal reimbursement for all meals in order 
to keep pace with rising costs and implementation of the Dietary 
Guidelines for Americans. Restoring equipment assistance is vital to 
helping schools develop the capability to serve these very desirable 
foods. Offering more plant-based options means that schools will need 
greater refrigeration capacity and more steamers for healthy 
preparation of these items. SNA appreciates the equipment assistance 
provided as part of the American Recovery and Reinvestment Act. The 
applications from schools far outpaced available funding, demonstrating 
that the need for this assistance is significant. It is for this reason 
that SNA has requested that Congress re-establish entitlement funding 
for equipment assistance in all schools to meet this need.
    3. As you noted, some schools are already offering students 
nondairy milk alternatives, with about 14 percent of school districts 
serving soy or rice milk, according to SNA's 2009 Operations Report. In 
fact, federal regulations require schools to offer a milk alternative 
to students with special dietary needs. However, as schools determine 
whether to offer nondairy milk alternatives they must also balance the 
additional cost, student demand for the product, as well as product 
waste on perishable food items.
            Sincerely,
                                                Dora Rivas.
                                 ______
                                 
    [Whereupon, at 4:15 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
